                                                       Appendix III




Assessment of SEC’s Continuous
Monitoring Program




                                                          August 11, 2011
                                                          Report No. 497



Assessment and Review Conducted by C5i Federal, Inc.

                             REDACTED PUBLIC VERSION
                                              UNITED STATES

                            SECURITIES AND EXCHANGE COMMISSION

                                         WASHINGTON, D.C.    20549


    O,.,.,C" 0,.


                                      MEMORANDUM
, ..SPECTOR <;E"ER4L




                                             August 11, 2011



            To:           Thomas Bayer, Chief Information Officer, Office of Information
                           Technology (OIT)
                         Jayne L. Seidman, Acting Associate Chief Operating Officer, Office
                           of Administrative Services (OAS)
                          Cristin Fair, Acting Associate Executive Director, Office of Human
                            Resources (OHR)

            From:         H. David Katz, Inspector General, Office of Inspector General (OIG     I/;)1.. --
            Subject:     Assessment of SEC's Continuous Monitoring Program,
                         Report No. 497


            This memorandum transmits the U.S. Securities and Exchange Commission
            OIG's final report detailing the results on our review of the Commission's
            continuous monitoring program. This review was conducted as part of our
            continuous effort to assess management of the Commission's programs and
            operations and as a part of our annual audit plan.


            The final report contains 13 recommendations which if fully implemented will
            strengthen OIT's continuous monitoring program. We are pleased OIT concurred
            with the 12 recommendations addressed to its office, OAS concurred with the 3
            recommendations addressed to its office, and OHR concurred with the
            recommendation addressed to its office. Your written responses to the draft
            report are included in Appendix VII.


            Within the next 45 days, please provide the OIG with a written corrective action
            plan that is designed to address the recommendations. The corrective action
            plan should include information such as the responsible official/point of contact,
            timeframes for completing required actions, and milestones identifying how you
            will address the recommendations.




        Assessment of SEC's Continuous Monitoring Program                           August 11, 2011
        Report No. 497
                                                   Page ii
                                      REDACTED PUBLIC VERSION
Should you have any questions regarding this report, please do not hesitate to
contact me or Anthony Barnes at x15331. We appreciate the courtesy and
cooperation that you and your staff extended to our staff and contractors during
this review.

Attachment

cc:    James R. Burns, Deputy Chief of Staff, Office of the Chairman
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Elisse B. Walter, Commissioner
       Jeff Heslop, Chief Operating Officer, Executive Director, Office of Chief
         of Operations
       Todd Scharf, Chief Information Security Officer, Office of Information
         Technology
       Judith Blake, Acting Audit Liaison, Office of Administrative Services




Assessment of SEC’s Continuous Monitoring Program                    August 11, 2011
Report No. 497
                                        Page iii
                            REDACTED PUBLIC VERSION
             Assessment of SEC’s Continuous
                   Monitoring Program

                               Executive Summary
Background. In August 2010, the U.S. Securities and Exchange Commission
(SEC or Commission), Office of Inspector General (OIG), contracted with C5i
Federal, Inc. (C5i) to assist with the completion and coordination of OIG’s input to
the Office of Management and Budget (OMB) Memorandum M-10-15, fiscal year
2010 Reporting Instructions for the Federal Information Security Management
Act (FISMA) and Agency Privacy Management 1 and to perform two separate
reviews—one on the SEC’s continuous monitoring program and the other on the
inclusion of language addressing privacy act requirements in SEC contracts. 2
Specifically, this review was conducted to assess the Commission’s continuous
monitoring program. C5i did not conduct detailed control tests because doing so
was not within the scope of its work.

Continuous monitoring is the process of tracking the security state of an
information system on an ongoing basis and maintaining the security
authorization for the system over time. Understanding the security state of
information systems is essential in highly dynamic operating environments with
changing threats, vulnerabilities, technologies, and missions/business processes.
Continuous monitoring includes, but is not limited to, the following components,
which are specified in National Institute of Standards and Technology (NIST)
Special Publication 800-53, Recommended Security Controls for Federal
Information Systems and Organizations (NIST 800-53): 3

    •   Access Control
    •   Awareness and Training
    •   Audit and Accountability
    •   Security Assessment and Authorization
    •   Configuration Management
    •   Contingency Planning
    •   Identity and Authentication
    •   Incident Response
    •   Maintenance
    •   Media Protection

1
  2010 Annual FISMA Executive Summary Report, Report No. 489 (Mar. 3 2011).
2
  Review of SEC Contracts for Inclusion of Language Addressing Privacy Act Requirements, Report No. 496
3
  National Institute of Standards and Technology (NIST), Recommended Security Controls for Federal
Information Systems and Organizations, Special Publication 800-53, Revision 3, Annex 3, pages 2-7,
http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-final_updated-errata_05-01-2010.pdf.
Assessment of SEC’s Continuous Monitoring Program                                      August 11, 2011
Report No. 497
                                               Page iv
                                 REDACTED PUBLIC VERSION
      •   Physical and Environmental Protection
      •   Planning
      •   Personnel Security
      •   Risk Assessment
      •   System and Services Acquisition
      •   System and Communications Protection
      •   System and Information Integrity

C5i used the guidance from NIST, OMB, and FISMA, and industry best practices
in our review and to support our conclusions and recommendations.

C5i reviewed the findings from previously issued OIG reports, conducted
interviews with SEC Office of Information Technology (OIT) staff, and reviewed
support documentation and the Commission’s policies and procedures. As
detailed in this report, we found the following additional areas need improvement:

      •   Access Control
      •   Audit and Accountability
      •   Configuration Management
      •   Contingency Planning
      •   Identity and Authentication
      •   Planning
      •   System and Services Acquisition
      •   System and Communications Protection
      •   System and Information Integrity

Because of previous work C5i conducted on the OIG’s annual FISMA reporting to
OMB, 4 C5i was aware of areas where they should focus its assessment of the
SEC’s continuous monitoring program.

Objectives. The overall objective was to review the SEC’s continuous
monitoring program and further assess current policies and procedures and their
compliance with NIST, FISMA, and OMB guidance.

Results. C5i’s review consisted of conducting in-depth interviews with OIT staff
whose areas of responsibility included, but were not limited to, disaster
recovery/continuity of operations, account management (activation and
termination of user accounts), help desk, network operations (patching, software
updates, log management), and asset inventory. We conducted interviews from
November 2010 to December 2010. During this timeframe, we also conducted
follow-up interviews with SEC employees to fully understand the Commission’s
continuous monitoring program. In addition, we reviewed documentation
provided to us such as the results of OIT’s disaster recovery tests and asset
4
    2010 Annual FISMA Executive Summary Report, Report No. 489, March 3, 2011.
Assessment of SEC’s Continuous Monitoring Program                                August 11, 2011
Report No. 497
                                               Page v
                                  REDACTED PUBLIC VERSION
inventory databases, and performed tests to verify whether OIT’s documented
procedures were being followed for functions such as password resets.
C5i met with staff from the OIT Server and Storage Group to fully understand
how the SEC’s network servers are managed and monitored. These servers
include                                                            which are the
essential components that make up the SEC’s network. We spoke with staff
responsible for the various servers to understand the configuration of new
servers, the deployment of new servers on the SEC’s network, the retiring of old
equipment, the monitoring of activities on the servers (logs), backup procedures
used to retain and store historical information in the event of a system failure,
and the process to “rebuild” network data. Our review found some areas of
concern in OIT’s policies and procedures surrounding log management and
retention, and backup retention.

Currently, the OIT Server and Storage Group captures and retains logs for its
networks and systems but has no documented policies and procedures
pertaining to this function. Without fully defined and documented roles and
responsibilities and procedures detailing the types of logs to be captured and
retained, we cannot fully determine whether the Commission is capturing system
and network logs in a manner that would provide all the necessary information in
the event of a security event investigation.

We also reviewed the SEC’s backup retention policies and procedures. We
found that the SEC performs               on critical files
                 on every server.                                     and stored
for                        are then reused. We also found that OIT has
documented policies and procedures outlining the roles and responsibilities for
backing up data. Although NIST does not specify a retention period for backup
data, industry best practices call for a     retention period. We are
recommending the Commission lengthen its retention period from
and update its policies and procedures accordingly. During this review, we also
found that                        stored       in a         facility.

As part of our review of the backup policies and procedures at the Commission,
C5i reviewed the Commission’s disaster recovery plans and its most recent
results of the disaster recovery tests that were performed. As documented in the
2010 FISMA assessment report, 5 the SEC has established and maintains an
agency -wide continuity of operations plan (COOP) and disaster recovery
program consistent with the requirements of NIST, FISMA, OMB and the
provisions of the February 2008 Federal Continuity Directive, 6 which state that
continuity plans and programs should be developed and have well-documented


5
 2010 Annual FISMA Executive Summary Report, Report No. 489 (Mar. 3, 2011).
6
 Federal Continuity Directive, Federal Executive Branch Continuity Program and Requirement (February
2008).
Assessment of SEC’s Continuous Monitoring Program                                     August 11, 2011
Report No. 497
                                              Page vi
                                 REDACTED PUBLIC VERSION
policies and procedures. 7 However, in reviewing the disaster recovery test
results, C5i found that not all the tests produced successful results. For
example, some applications exceeded the maximum allowable time to come
back online, and communication and coordination was not as strong as needed.
C5i did find there were improvements from the bi-annual April and November
tests in 2010 to the retest performed in January 2011. However, we are still
concerned about the SEC’s full failover and restore capabilities. Due to the
issues encountered in the disaster recovery exercises, C5i is concerned that in
the event of a major disaster, a fully successful failover and recovery cannot be
completed.

During a previous assessment, 8 we found many issues with OIT’s patching
policies and procedures, specifically, ineffective patch management. During this
assessment, C5i found that the Commission had made great strides in improving
the deployment of patches to its systems and ensuring that the systems were up
to date with current security remediation issued by vendors. However, C5i also
found that the environment used to test patches before deployment to the
Commission’s production systems was not identically configured to the test
environment due to differences in hardware and software. Using a test
environment that does not accurately reflect the current production environment
can produce inaccurate results and can result in failure of patches or other
remediation to work correctly when deployed into production, which can lead to
adverse effects on the production network and degradation of network
performance. We are recommending that the Commission configure its testing
and production environments identically to ensure that the results of pre-
deployment tests of patches are full and conclusive.

During the 2010 FISMA assessment, C5i found the SEC’s network password
policy is not Federal Desktop Core Configuration compliant with respect to
password complexity and the frequency which passwords are required to be
changed. 9 Our review found that the SEC password policy is not consistently
applied to all network users. C5i found five contractors who had never been
prompted to change their passwords and had their then-current passwords for
more than               in violation of the SEC’s password policy that requires
                                             10
passwords to be changed                         C5i also found that the SEC
password policy requirements for complexity, as documented in SEC
Implementing Instruction, II 24-04.06.01 (01.1), Identification and Authentication,
July 9, 2008, are inconsistent with the Group Policy requirements implemented in
Active Directory on the SEC network in that the Group Policy requirements
require

7
  OIT-00047-001.0 Disaster Recovery Planning Procedures, 24-04.09 IT Security Business Continuity
Management Program, SEC Implementing Instruction 24-04.09.01 (02.0) System Business Impact Analysis,
and OIT-00003-001.0 Disaster Recovery Planning Policy.
8
  Assessment of SEC’s Privacy Program, Report No. 485 (Sept. 29, 2010).
9
  2010 Annual FISMA Executive Summary Report, Report No. 489 (Mar. 3, 2011).
10
   SEC Implementing Instruction II 24-04.06.01 (01.1), Identification and Authentication (July 9, 2008).
Assessment of SEC’s Continuous Monitoring Program                                     August 11, 2011
Report No. 497
                                               Page vii
                                 REDACTED PUBLIC VERSION
Further, C5i tested procedures for requesting password changes through the
SEC help desk and performed four separate tests to determine whether help
desk technicians were following the proper procedures to fully verify callers’
identity before resetting their network password. C5i found many
inconsistencies. For example, some technicians requested information such as

                                       and others did not. Although OIT Policy 41-
07-007-001.0, Technical Assistance Center/Customer Care Center Password
Reset Procedures for Remote and LAN Accounts, specifies the information that
technicians are to verify before they reset a password, C5i found that technicians
are not consistently following these procedures. In addition, the policy should be
updated to include the new requirement to verify the


Furthermore, C5i conducted two additional tests to verify whether or not the
password structure documented in SEC II 24-04.06.01 (01.1), Identification and
Authentication was being fully enforced. We found that although a
          is        in the                    the requirement         being
         by the                 .

When an SEC help desk technician resets a password, the technician provides
the caller with a                    such as               or                  but
when the caller logs into the SEC network for the first time with the
                                                                . This, coupled
with inconsistent application of the requirement that             be
                  could allow individuals to
We recommend that OIT investigate using a random password generator that
would generate a complex password for users requesting a password reset,
which would (1) provide more secure temporary passwords and (2) spur users to
change their password on their first log-on attempt after the reset. OIT should
also investigate the implementation of a prompt that directs users to change their
help-desk-issued             on their         on to help ensure that
                                  11
            are used only       .

As reported in the OIG’s 2010 FISMA Assessment, 12 C5i found that 14 network
accounts had not been properly terminated when users had separated from or
been terminated by the Commission. Our review of the procedures used to
activate and terminate network accounts found that although the procedures are
documented, there is no “cross-reference” or audit performed by OIT, Office of
Human Resources, and Office of Administrative Services (OAS) to ensure all
terminations have been received and processed in a timely manner. C5i also

11
   As of June 8, 2011 one contractor’s passwords had expired reflecting that OIT is taking steps to remediate
this issue. The password was changed to a randomly generated password. Three of the contractors are no
longer working at the SEC, and the other test subject has not yet been affected by the change in procedure
12
   2010 Annual FISMA Executive Summary Report, Report No. 489 (Mar. 3, 2011).
Assessment of SEC’s Continuous Monitoring Program                                         August 11, 2011
Report No. 497
                                                Page viii
                                  REDACTED PUBLIC VERSION
found that while OIT has a policy for contractor’s entry and exit that specifies
steps for issuing badges, setting up and terminating accounts, equipment
issuance and so on, the policy does not apply Commission-wide. At the time of
our review OAS was developing a policy to be implemented throughout the
Commission, but it had not been completed or approved. C5i also found that the
OAS policy under development lacked some of the detail that was included in
OIT’s policy such as roles and responsibilities and checklists. C5i is
recommending that OAS and OIT work together on Commission-wide policy and
finalize and implement this policy. Training for all staff involved with contractors
such as Contracting Officers, Contracting, Officer’s Technical Representatives,
and Contractor Points of Contact, should also be developed and rolled out to
ensure the policy is effectively and thoroughly communicated.

Summary of Recommendations. Our review determined that numerous
improvements were required to enhance the SEC’s continuous monitoring
program. Specifically, we recommended the following:

     (1)   OIT should review the Commission’s Microsoft Active Directory
           settings and make the necessary changes to ensure that OIT
           password policy requirements, as documented in the
           Implementing Instruction, are strictly enforced for both on-site
           and remote users and that the documented password structure
           set forth in OIT policy is strictly enforced.

     (2)   OIT’s help desk should begin using a random password
           generator to create temporary passwords and require users to
                            on their         .

     (3)   OIT should implement training for                personnel to
           ensure that           technicians consistently verify users’
           information in accordance with OIT policy when they receive
           requests to change user accounts and passwords.

     (4)   OIT should ensure that security controls configurations that are
           applied in the production environment are identical with those
           applied in the testing environment.

     (5)   OIT should develop and implement written procedures to ensure
           configuration consistency in the Commission’s production and
           testing environments. These procedures should detail the
           software and hardware components in both environments and
           specify the actions required to maintain consistent
           environments.



Assessment of SEC’s Continuous Monitoring Program                     August 11, 2011
Report No. 497
                                        Page ix
                            REDACTED PUBLIC VERSION
     (6)   OIT should complete and finalize written server and storage log
           management policies and procedures that fully document roles
           and responsibilities for log capture, management, retention and
           separation of duties.

     (7)   OIT should require that the                     and the
                                    have consistent, appropriately installed
           application and system configuration files to ensure the ability to
           successfully failover and/or restore in the event of a disaster.

     (8)   OIT should fully document and communicate the criteria used to
           determine the success or failure of an application during the
           Disaster Recovery tests to ensure consistent reporting of results
           and alleviate confusion.

     (9)   OIT should analyze the level of criticality of the Commission’s
           data being            and the needs and wants of its
           customers, and establish an appropriate backup retention
           period based on the results of that analysis and that meets the
           requirements of the Commission.

     (10) OIT should ensure that                    from the Commission’s
                            are sent to an                         .

     (11) OAS should work with the OIT to develop and implement a
          comprehensive Commission–wide policy for the Entry and Exit
          of Contractors.

     (12) After the OAS contractor entry and exit policy, Contractor
          Personnel Employment Entrance and Exit Procedures, has
          been finalized and approved, OAS should provide training and
          communicate with responsible parties, such as Contracting
          Officers, Contracting Officer’s Technical Representatives, and
          Inspection and Acceptance Officials, regarding their roles and
          responsibilities and proper procedures with respect to contractor
          entry into and exit from the Commission.

     (13) OHR, OIT, OAS, and the contracting office should perform, at a
          minimum, a                 of separated/terminated employees
          and contractors to ensure that OIT has received all account
          termination notices and has deactivated the appropriate
          accounts in a timely manner.




Assessment of SEC’s Continuous Monitoring Program                      August 11, 2011
Report No. 497
                                        Page x
                            REDACTED PUBLIC VERSION
TABLE OF CONTENTS
Executive Summary ..................................................................................................... iv

Table of Contents ........................................................................................................ xi

Background and Objectives .......................................................................................... 1

Findings and Recommendations ......................................................................... 3
     Finding 1: OIT Is Not Fully Enforcing the Requirements of Its
     Implementing Instruction for User Account Identification and
     Authentication .................................................................................................... 3
                  Recommendation 1....................................................................... 5
                  Recommendation 2....................................................................... 5

         Finding 2: OIT’s Help Desk Password and PIN Reset Verification
         Procedures Need Improvement ......................................................................... 6
                      Recommendation 3....................................................................... 9

         Finding 3: OIT’s Test and Production Environments Are Not Identically
         Configured.......................................................................................................... 9
                       Recommendation 4..................................................................... 11
                       Recommendation 5..................................................................... 12

         Finding 4: Policies and Procedures for Computer
         Management, and             Have Not Been Fully Implemented, and
         Duties Should Be Segregated. ......................................................................... 12
                      Recommendation 6..................................................................... 18

         Finding 5: OIT’s                and                          Disaster Recovery Tests Were
         Not Fully Successful Because Some Internal Applications Did Not
         Failover. ........................................................................................................... 18
                          Recommendation 7..................................................................... 22
                          Recommendation 8..................................................................... 22

         Finding 6: OIT Has Not Sufficiently Conducted an Analysis to Determine
         Whether its Information System Backup Retention Period Is Sufficient ........... 23
                       Recommendation 9..................................................................... 25

         Finding 7: All SEC             are Not                              .............................. 25
                       Recommendation 10................................................................... 27




Assessment of SEC’s Continuous Monitoring Program                                                   August 11, 2011
Report No. 497
                                                      Page xi
                                     REDACTED PUBLIC VERSION
         Finding 8: OAS’ Draft Contractor Entry and Exit Procedures Should be
         Revised to Include More Comprehensive Procedures ..................................... 27
                      Recommendation 11................................................................... 29
                      Recommendation 12................................................................... 29

         Finding 9: SEC Lacks Procedures to Ensure Timely Termination of
         Network Accounts ............................................................................................ 29
                      Recommendation 13................................................................... 31

Appendices
    Appendix I. Abbreviations................................................................................ 32
    Appendix II. Scope and Methodology .............................................................. 33
    Appendix III. Criteria and Guidance ................................................................ 37
    Appendix IV. Disaster Recovery Tests for External and Internal
                   Applications .............................................................................. 40
    Appendix V. Screenshots ................................................................................ 43
    Appendix VI. List of Recommendations .......................................................... 49
    Appendix VII. Management’s Comments ........................................................ 52
    Appendix VIII. OIG Response to Management’s Comments............................ 57

Tables
     Table 1. Internal Applications That Did Not Failover ....................................... 20
     Table 2. Comparison of                                                                 With
              Results of                                                                      ................... 21
     Table 3. Comparison of                                                                          With
              Results of                                                                   ...................... 21
     Table 4.
                             .................................................................................... 40
     Table 5. Internal Applications               During                                              ........... 41

Figures
     Figure 1. Event Logs:                                                               .................................. 43
     Figure 2. Event Logs: Historical Archives
                                                                                          ................................ 43
         Figure 3. Event Logs: Historical Archives
                                                               ........................................................... 44
         Figure 4. Active Directory Logs:
                          ................................................................................................ 45
         Figure 5. Active Directory Logs:
                                             ............................................................................. 45




Assessment of SEC’s Continuous Monitoring Program                                                August 11, 2011
Report No. 497
                                                    Page xii
                                    REDACTED PUBLIC VERSION
       Figure 6. Active Directory Logs:
                              .......................................................................................... 46
       Figure 7. Active Directory Logs:
                        ................................................................................................ 46
       Figure 8. ADC                                                                                        ............ 47
       Figure 9. ADC                                                                                        ............ 47
       Figure 10. OPC                                                                               .................... 48




Assessment of SEC’s Continuous Monitoring Program                                              August 11, 2011
Report No. 497
                                                  Page xiii
                                  REDACTED PUBLIC VERSION
                    Background and Objectives
Background
Overview. In August 2010, the U.S. Securities and Exchange Commission (SEC
or Commission), Office of Inspector General (OIG), contracted with C5i Federal,
Inc. (C5i) to assist with completing and coordinating the OIG’s input to the
Commission’s response to Office of Management and Budget (OMB)
Memorandum M-10-15, fiscal year (FY) 2010 Reporting Instructions for the
Federal Information Security Management Act and Agency Privacy
Management. 13 This memorandum provides the instructions and templates for
meeting the FY 2010 reporting requirements under the Federal Information
Security Management Act of 2002 (FISMA). 14 The SEC OIG also contracted with
C5i to review the SEC’s continuous monitoring program and the handling of SEC
personally identifiable information (PII) by third-party contractors. 15

This report presents the results of C5i’s review of the SEC’s continuous
monitoring program. Continuous monitoring is the process of tracking the
security state of an information system on an ongoing basis and maintaining the
security authorization for the system over time. Understanding the security state
of information systems is essential in highly dynamic environments of operation
with changing threats, vulnerabilities, technologies, and business processes. C5i
did not conduct detailed control tests, as they were not within the scope of its
work.

According to National Institute of Standards and Technology (NIST) Special
Publication 800-53, Recommended Security Controls for Federal Information
Systems and Organizations (NIST 800-53), continuous monitoring includes, but
is not limited to the following components:

     •   Access Control
     •   Awareness and Training
     •   Audit and Accountability
     •   Security Assessment and Authorization
     •   Configuration Management
     •   Contingency Planning
     •   Identity and Authentication

13
   OMB Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management (Apr. 21, 2010).
http://www.whitehouse.gov/sites/default/files/omb/assets/memoranda_2010/m10-15.pdf.
14
   Federal Information Security Management Act of 2002 (Title III, Pub. L. No. 107-347), http://csrc.
nist.gov/drivers/documents/FISMA-final.pdf.
15
   OIG, Review of Third-Party Contractor’s Handling of SEC Personally Identifiable Information, Report No.
496.
Assessment of SEC’s Continuous Monitoring Program                                        August 11, 2011
Report No. 497
                                                 Page 1
                                  REDACTED PUBLIC VERSION
     •   Incident Response
     •   Maintenance
     •   Media Protection
     •   Physical and Environmental Protection
     •   Planning
     •   Personnel Security
     •   Risk Assessment
     •   System and Services Acquisition
     •   System and Communications Protection
     •   System and Information Integrity 16

Objective
To review the SEC’s continuous monitoring program and further assess the
SEC’s current policies and procedures and its compliance with the NIST, FISMA,
and OMB guidance.




16
   National Institute of Standards and Technology (NIST), Recommended Security Controls for Federal
Information Systems and Organizations, Special Publication 800-53, Revision 3, Annex 3, pp. 2-7,
http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-final_updated-errata_05-01-2010.pdf.
Assessment of SEC’s Continuous Monitoring Program                                       August 11, 2011
Report No. 497
                                                Page 2
                                  REDACTED PUBLIC VERSION
                  Findings and Recommendations

Finding 1: OIT Is Not Fully Enforcing the
Requirements of Its Implementing Instruction for
User Account Identification and Authentication
           OIT’s      Implementing    Instruction  24-04.06.01(01.1),
           Identification and Authentication for all network user
           accounts is not being fully enforced. As a result, OIT’s
           practices are in violation of Implementing Instruction 24-
           04.06.01 (01.1) and NIST 800-53.

Passwords are an essential component in protecting an organization’s computer
networks and the information they contain. When a network account is initially
setup at the Commission, users are assigned a user name and a temporary
password that must be changed when the user logs onto the network for the first
time. The user is prompted to change the password and the password is to be
changed at regular intervals according to OIT Implementing Instruction 24-
04.06.01(01.1), Identification and Authentication, which states the following:

           With the exception of initial passwords, user-selected
           passwords are required.               expire every
                                                 which
                  The information system must have an automated
           mechanism to ensure that users and administrators change
           their passwords at an interval not greater than the
           timeframes established by this policy. The information
           system provides the user, via a popup alert on login, with a
                                      of                    . 17

In the Microsoft Active Directory Network environment, OIT uses the built in
Microsoft feature called Group Policy which provides the centralized
management and configuration of operating systems, applications and users'
settings. Microsoft Group Policy is a set of rules that controls the working
environment of user accounts and computer accounts, essentially controlling
what users can and cannot do in Microsoft environments. Microsoft’s default
Group Policy password structure requires that passwords contain characters
from three of the following five categories:




17
     OIT Implementing Instruction 24-04.06.01 (01.1), Identification and Authentication (July 9, 2008).
Assessment of SEC’s Continuous Monitoring Program                                             August 11, 2011
Report No. 497
                                                    Page 3
                                     REDACTED PUBLIC VERSION
           •    Uppercase characters of European languages (A through Z,
                with diacritic marks, Greek and Cyrillic characters)
           •    Lowercase characters of European languages (a through z,
                sharp-s, with diacritic marks, Greek and Cyrillic characters)
           •    Base 10 digits (0 through 9)
           •    Non-alphanumeric characters: ~!@#$%^&*_-+=`|\(){}[]:;"'<>,.?/
           •    Any Unicode character that is categorized as an alphabetic
                character but is not uppercase or lowercase. This includes
                Unicode characters from Asian languages. 18

According to OIT’s Implementing Instruction for Identification and Authentication,
system and application passwords must be at least eight characters long, contain
at least one number, and include at least one special character (i.e., a non-
alphabetic or non-numeric symbol). They should also be complex or difficult to
guess and should not contain full dictionary words. 19

C5i determined that the instruction is written to apply to all users who access
SEC systems, whether onsite or remotely, and conforms with NIST 800-53,
Security Control IA-5 Authenticator Management, 20 although it does not comply
with Federal Desktop Core Configuration standards for password length and
change intervals, as noted in the OIG’s 2010 Annual FISMA Executive Summary
Report. 21 While the instruction conforms to NIST 800-53, OIT is not
implementing the instruction in a manner that complies with NIST 800-53
standards.

NIST 800-53 standards require that passwords have defined “lifetime
restrictions,” i.e., how frequently passwords need to be changed. 22 Further, the
Implementing Instruction provides the requirement that user passwords be
changed every 120 days and that the user is prompted 14 days prior to the
expiration of their current password to make the change. 23 However, C5i
identified discrepancies with password change prompting personnel who
remotely access SEC systems via the virtual private network, Citrix, or Outlook
Web Access. C5i’s judgmental sample found five cases where contractors who
                       SEC            were not           to
                                         and had                            for
                   . Two of the five contractors received their passwords in
       and the other three received their passwords in


18
   http://technet.microsoft.com/en-us/library/cc786468%28WS.10%29.aspx.
19
   Id., p. 3.
20
   NIST 800-53, p. F-57, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
21
   OIG, 2010 Annual FISMA Executive Summary Report, Report No. 489 (Mar. 6, 2011).
22
   NIST 800-53, p. F-57, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
23
   OIT Implementing Instruction 24-04.06.01 (01.1), Identification and Authentication (July 9, 2008).
Assessment of SEC’s Continuous Monitoring Program                                           August 11, 2011
Report No. 497
                                                  Page 4
                                   REDACTED PUBLIC VERSION
                                                                          24
However, none of them have been
Although a                           solution is in place for the initial
authorization of remote users, the Microsoft Windows Active Directory password
changes are not enforced and the cases C5i identified violate OIT Implementing
Instruction 24-04.06.01 (01.1) and NIST 800-53. 25

         Recommendation 1:

         The Office of Information Technology (OIT) should review the
         Commission’s Microsoft Active Directory settings and make the necessary
         changes to ensure that OIT password policy requirements, as
         documented in the Implementing Instruction, are strictly enforced for both
         on-site and remote users and that the documented password structure set
         forth in OIT policy is strictly enforced.

         Management Comments. OIT concurred with this recommendation.
         See Appendix VII for management’s full comments.

         OIG Analysis. We are pleased that OIT concurred with this
         recommendation.

         Recommendation 2:

         The Office of Information Technology help desk should begin using a
         random password generator to create temporary passwords and require
         users to                  on their

         Management Comments. OIT concurred with this recommendation.
         See Appendix VII for management’s full comments.

         OIG Analysis. We are pleased that OIT concurred with this
         recommendation.




24
   As of June 8, 2011 one of the contractor’s passwords expired reflecting that OIT is taking steps to
remediate this issue. The password was changed to a randomly generated password. Three of the
contractors are no longer working at the SEC, and the other test subject has not yet been affected by the
change in procedure.
25
   NIST 800-53, p. F-58, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
Assessment of SEC’s Continuous Monitoring Program                                         August 11, 2011
Report No. 497
                                                 Page 5
                                  REDACTED PUBLIC VERSION
Finding 2: OIT’s Help Desk Password and PIN
Reset Verification Procedures Need Improvement
           OIT help desk does not always apply consistent procedures
           when users call to request a password reset.

When an SEC user requests a user password or personal identification number
(PIN) reset from                    responding technicians do not always use
consistent verification procedures. By not always properly and fully verifying the
                   to the          OIT personnel are violating documented OIT
procedures and can increase the risk that a malicious party may inadvertently
gain access to SEC’s systems.

According to OIT Policy 41-07-007-001.0,
             Password Reset Procedures for                                (OIT
Policy 41-07-007-001.0), the following user information must be verified before a
password or PIN reset is processed:




During interviews with OIT staff, C5i found that in certain cases before
     technicians process a user password or PIN reset, they verified the
        by        asking for the user’s           , the             of the
                        and the                            , which according to OIT
Policy 41-07-007-001.0 is not sufficient.

To test            compliance with OIT’s documented user password and PIN
reset policy, a C5i contractor who had just received his SEC network credentials
attempted to log onto his account at the SEC Operations Center (OPC) in
Alexandria, Virginia. When the contractor’s temporary password did not work he
used the                                         to call the             for
assistance. The technician asked for the person’s
and the password was reset. To determine whether this behavior was an
anomaly, C5i conducted       additional tests of whether the OIT help desk
obtained the information required by OIT Policy 41-07-007-001.0 from individuals
requesting password and PIN resets, as described below. 27

26
     OIT Help Desk, (202) 551- 4357, Option 2.
27
     In all tests, the contractors used their true identities and did not represent themselves as someone else.
Assessment of SEC’s Continuous Monitoring Program                                              August 11, 2011
Report No. 497
                                                     Page 6
                                      REDACTED PUBLIC VERSION
         Test 1: On January 21, 2011, a C5i contractor working for SEC
         called the                 from                                and
         requested his password be reset. The                   technician asked
         for the person’s
                  the                                     and whether he was an
                    or a              The technician did not reset the
         password because the call did not come from a
                              The technician said that he did not have the
         authority to make the change and referred the contractor to an OIT
         information technology (IT) specialist who could help reset the
         password. While OIT Policy 41-07-007-001.0 does not specifically
         require referral to an IT specialist in this type of situation, C5i found
         that the            technician’s verification of the caller’s identity
         was more thorough than in the initial test case described above.

         Tests 2 and 3: On January 27, 2011, two C5i contractors
         contacted the                   and requested their passwords be
         reset. The calls were made from the
                location in                      from the desk of an
                     and from a                     telephone. The technicians
         verified both callers’ identities by obtaining their
                                               , and the                     ,
         then reset the passwords. The technicians did not, however, obtain
         all the required information that was needed to verify the callers’
         identify, as described in OIT Policy 41-07-007-001.0.

         Test 4: On January 28, 2011, a C5i contractor called the
               from a                      and requested his password be
         reset. The technician only verified the caller’s        and then
         reset the password, which violates OIT Policy 41-07-007-001.0. 28

On their next logins, which occurred onsite at
location,      , and          , the four contractors who performed the tests
described above were not                          the          passwords they were
given by                 staff. As of February 7, 2011, the four contractors
                        . Although the                        conform to OIT
Implementing Instruction 24-04.06.01 (01.1) (i.e., they have a minimum of
characters and contain a                                    ), all four contractors
contend that the structure of the                      is not sophisticated and
could       be compromised. The four contractors did not share their
passwords with anyone and only confirmed that they were



28
   OIT was not notified of the results of these tests prior to the issuance of this report as this was not a
requirement of the assessment.
Assessment of SEC’s Continuous Monitoring Program                                              August 11, 2011
Report No. 497
                                                    Page 7
                                    REDACTED PUBLIC VERSION
Further, to test compliance with OIT Implementing Instruction 24-04.06.01 (01.1),
for password characteristics and structure, C5i conducted the following two
additional tests:

       Test 5: On February 7, 2011, while           at the
             offices, one of the four contractors who had received a
               password from the                   technician changed the
               password to further test compliance with OIT
       Implementation Instruction 24-04.06.01 (01.1). The contractor
       purposely did not include
       as required by the Implementing Instruction, and the new password
       was successfully changed without the required

       Test 6: To confirm that the result of test 5 was not an anomaly, two
       additional contractors and an SEC employee changed their
                   on February 7, 2011, and February 8, 2011,
       respectively. First, they attempted to change their              using
       only        and               or                   , but the system
       rejected                        . They then used a
                                         but no                     and that
       password change was accepted.

C5i’s review found that the SEC’s network systems are not always enforcing the
SEC’s documented, required                       , as evidenced by the ability of
SEC contractors and employees to                             without using
            as required by OIT Implementing Instruction 24-04.06.01 (01.1). The
SEC’s network systems are set to comply with                          , which has
less complex requirements than the                               This deficiency
must be addressed to ensure full compliance with the SEC’s
The failure to enforce Implementing Instruction 24-04.04.01 (01.1) most stringent
requirements increases the risk that user accounts and critical SEC data could
be compromised.

C5i also determined from the results of the tests described above that OIT
     personnel did not consistently verify                   in accordance with
OIT Policy 41-07-007-001.0. By not properly and fully verifying the
                          OIT personnel are violating documented OIT policy and
increasing the risk that they might inadvertently help a malicious party gain
access to SEC systems.




Assessment of SEC’s Continuous Monitoring Program                     August 11, 2011
Report No. 497
                                        Page 8
                            REDACTED PUBLIC VERSION
       Recommendation 3:

       The Office of Information Technology (OIT) should implement training for
                       personnel to ensure that          technicians consistently
       verify users’ information in accordance with OIT policy when they receive
       requests to change user accounts and passwords.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.


Finding 3: OIT’s Test and Production
Environments Are Not Identically Configured
       OIT’s test and production environments are not identically
       configured. As a result, OIT may be unable to fully assess
       and determine if updates to applications and software tested
       in the test environment that are deployed into the production
       environment will operate and function as intended and
       prevent unintended negative impacts to the existing
       production environment.

A testing environment is created for the purpose of testing application and
software upgrades, new applications, security patches, configuration
modifications, and the like, that are to be deployed throughout an organization to
confirm that they function properly and have no negative impact on the existing
production environment. A production environment consists of the hardware and
software used day-to-day to conduct the organization’s business. The setup of
software and hardware components consists of physical and logical and other
needed software components.

Testing is an essential component of IT staff practices in any organization. The
testing environment is used by testers to load and test new applications, system
or application patches, system updates, and software products prior to their
implementation in production systems. In the testing environment tests are
conducted to identify and remediate any issues that emerge (e.g., software
incompatibility) and thereby prevent them from occurring in the production
environment, and to ensure that production systems are capable of handling new
applications, patches, system updates, and software products.



Assessment of SEC’s Continuous Monitoring Program                   August 11, 2011
Report No. 497
                                        Page 9
                            REDACTED PUBLIC VERSION
As stated in NIST SP800-123, Guide to General Server Security, “Administrators
should generally not apply patches to production servers without first testing
them on another identically configured server because patches can inadvertently
cause unexpected problems with proper server operation.”29

Testing new software and security patches in an environment that is not
identically configured can provide false-positive results which incorrectly indicate
that a deployment will be successful. If, for example, a patch were deployed into
production without first being tested in an identically configured environment, the
patch could have a severe negative effect on an organization’s network or
applications, such as locking out users from system files or causing the system to
crash. The more closely the test environment configuration reflects the
production environment—through the use of duplicate hardware and software
components and version numbers—the more likely it is that the performance
obtained in the testing environment will reflect the performance obtained in the
production environment. Ideally, once any upgrade or change has been properly
tested, the results demonstrate the desired functionality, and the testing has
been deemed sufficiently reliable, the upgrade or change can be deployed to the
production environment and made available to users without having unintended,
negative effects on the network or applications.

Through interviews with OIT staff, C5i discovered that OIT’s testing and
production environment is not identically configured. C5i determined that the
differences have occurred because major applications or software in the testing
environment (1) do not have the correct configuration files, (2) are not the correct
version, and (3) are not being set up to simulate the production environment.
Based on a sample report of 10 applications from OIT’s testing and production
environments provided by OIT, C5i determined that the
                                                                        are not the
same version in the test environment as in production as follows:

     (1) The              is currently using              in the test
         environment while running                   in the production
         environment.
     (2) The                      is currently using                    in the
         test environment while running                     in the production
         environment.
     (3) The                   is currently running                   in the test
         environment while running                   in the production
         environment.




29
   NIST SP 800-123, Guide to General Server Security, July 2008,
http://csrc.nist.gov/publications/nistpubs/800-123/SP800-123.pdf, Page 4-2
Assessment of SEC’s Continuous Monitoring Program                            August 11, 2011
Report No. 497
                                                Page 10
                                  REDACTED PUBLIC VERSION
Different application versions may have different configuration files, and
inconsistent configuration files may cause issues with applications, such as
affecting the ability to view and create reports.

According to OIT staff, the differences in the application versions occurred
because newer versions of the applications were being tested in the test
environment before being deployed to the production environment. However, the
updated test environment is the same environment that OIT uses to test patches.
Testing a patch in this updated environment may therefore not accurately predict
whether the patch will adversely affect the existing, un-updated production
environment.

Although there are currently no specific OIT policies or procedures that require it
to implement or maintain identical environments, OIT’s testing of patches in an
environment that is not identical to the production environment could incorrectly
indicate that patches could be successfully deployed to the SEC production
environment when in fact they could have adverse effects on SEC production
systems. Testing procedures for patches are detailed in OIT Implementing
Instruction 24-05.04.03, Patch Management, which states the following:

           Patches and configuration modifications are initially tested on non-
           production systems to account for any unintended remediation
           consequences. The non-production testing environment, within
           budget constraints, needs to accurately represent the production
           configuration. 30

One of the main goals of the IT staff within an organization is to ensure that
production systems run smoothly and efficiently. To achieve this goal, system
modifications or additions need to be tested in a test environment that is
configured identically as the production environment before they are deployed
throughout the organization.

           Recommendation 4:

           The Office of Information Technology should ensure that security controls
           configurations that are applied in the production environment are identical
           with those applied in the testing environment.

           Management Comments. OIT concurred with this recommendation.
           See Appendix VII for management’s full comments.

           OIG Analysis. We are pleased that OIT concurred with this
           recommendation.

30
     OIT Implementing Instruction 24-05.04.03, Patch Management (Dec. 28, 2005).
Assessment of SEC’s Continuous Monitoring Program                                  August 11, 2011
Report No. 497
                                                Page 11
                                   REDACTED PUBLIC VERSION
       Recommendation 5:

       The Office of Information Technology should develop and implement
       written procedures to ensure configuration consistency in the
       Commission’s production and testing environments. These procedures
       should detail the software and hardware components in both
       environments and specify the actions required to maintain consistent
       environments.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.


Finding 4: Policies and Procedures for
Computer                , Management, and
          Have Not Been Fully Implemented,
and Duties Are Not Segregated
       OIT currently does not have policies and procedures
       pertaining to log management and has not applied the
       concept of separation of duties to log management. As a
       result, logs may not be effectively capturing important
       information, and staff are not fully aware of their roles and
       responsibilities with respect to the logging function.

A computer log is a file that contains events that are logged by the operating
system’s components. Logs can be configured to track information about user
activity such as access, or to contain specific user information, such as the time
pattern of a user’s log-in. When an organization enables its logs, it can then use
security tools to examine the logs to detect abnormal patterns, such as user log-
ins at unusual times, which could suggest that an intruder has gained access to
an organization’s network, server, or system.

Logs are the primary tool used by system administrators to detect and investigate
attempted and unauthorized network or computer system access activity and to
troubleshoot user system problems. Since logs can track user activity, ensuring
that logs are enabled can deter users from misusing the organization’s network
and make it possible to detect unauthorized access attempts to the
organization’s network, server, or system by hackers or intruders. Because most
system threats are internal to an organization, logs can also aid in identifying the

Assessment of SEC’s Continuous Monitoring Program                    August 11, 2011
Report No. 497
                                       Page 12
                            REDACTED PUBLIC VERSION
parties that are involved in security incidents. When an organization’s logs are
active and enabled, the organization should be able to obtain substantial
information that will help it conduct an audit, and trace events that can identify
the root cause of problems.

Computerized data logging is the process of recording events with an automated
computer program to provide an audit trail that can be used to understand the
activity of the system and to diagnose problems. Logs can be generated by such
sources as the organization’s system, server, and domain controller. The OIT
Servers and Storage group is responsible for administering nd managing
hundre of logs for th      EC’s

The OIT Servers and Storage group has enabled logging for all Exchange
servers, Print servers, File servers, Domain Controllers, and system-generated
logs. NIST SP 800-92 Guide to Computer Security Log Management states:

           Log management is essential to ensuring that computer security
           records are stored in sufficient detail for an appropriate period of
           time. Routine log analysis is beneficial for identifying security
           incidents, policy violations, fraudulent activity, and operational
           problems. Logs are also useful when performing auditing and
           forensic analysis, supporting internal investigations, establishing
           baselines, and identifying operational trends and long-term
           problems. 37

The specifics of the type of information an organization chooses to capture in its
logs (log configuration/rules), the log retention period (i.e., how long the logs are
retained), system administrator roles and responsibilities, and how often logs
should be reviewed are key components in establishing an organization’s log
management policies and procedures. Quantified, established policies and
procedures give management the ability to guide operations without constant
intervention because they provide guidance regarding day-to-day activities to
system administrators, system owners, and system users.

31
     A Microsoft Exchange server is a widely used method of creating a messaging collaborative environment.




  NIST, Guide to Computer Security Log Management, Special Publication 800-92, pp. ES-1, http://csrc.
nist.gov/publications/nistpubs/800-92/SP800-92.pdf, September 2006.
Assessment of SEC’s Continuous Monitoring Program                                         August 11, 2011
Report No. 497
                                                 Page 13
                                    REDACTED PUBLIC VERSION
OIT Log Retention, Capture, and Management Policies and Procedures. C5i
found that OIT does not have formal written policies and procedures pertaining to
log retention, log capture, and log management. NIST 800-92 requires agencies
to establish and maintain log management activities as follows:

        To establish and maintain successful log management activities, an
        organization should develop standard processes for performing log
        management. As part of the planning process, an organization
        should define its logging requirements and goals. Based on those,
        an organization should then develop policies that clearly define
        mandatory requirements and suggested recommendations for log
        management activities, including log generation, transmission,
        storage, analysis, and disposal. An organization should also
        ensure that related policies and procedures incorporate and
        support log management requirements and recommendations. The
        organization’s management should provide the necessary support
        for the efforts involving log management planning, policy, and
        procedures development.

        After an organization defines its requirements and goals for the log
        management process, it should then prioritize the requirements and
        goals based on the organization’s perceived reduction of risk and
        the expected time and resources needed to perform log
        management functions. An organization should also define roles
        and responsibilities for log management for key personnel
        throughout the organization, including establishing log management
        duties at both the individual system level and the log management
        infrastructure level. 38

NIST 800-53, Control AU-1 Audit and Accountability Policies and Procedures,
provides the following guidance regarding the need for documented and
implemented policies and procedures for audits (logs):

        The organization develops, disseminates, and reviews/updates
        (Assignment: organization-defined frequency):

        a. A formal, documented audit and accountability policy that
           addresses purpose, scope, roles, responsibilities,
           management commitment, coordination among
           organization entities, and compliance; and




38
   NIST, Guide to Computer Security Log Management, Special Publication 800-92, pp. ES-1–ES-2,
http://csrc.nist.gov/publications/nistpubs/800-92/SP800-92.pdf, September 2006.
Assessment of SEC’s Continuous Monitoring Program                                   August 11, 2011
Report No. 497
                                             Page 14
                                REDACTED PUBLIC VERSION
         b. Formal, documented procedures to facilitate the
            implementation of the audit and accountability policy and
            associated audit and accountability controls. 39

C5i’s interviews with OIT Server and Storage group                               staff
found that although they generate logs, OIT does not have any written log
management policies and procedures. According to OIT staff, OIT is in the
process of drafting policy, but the draft policy was not available for C5i’s review.
Therefore, C5i was unable to assess its adequacy and compliance with NIST
800-53 and NIST 800-92.

C5i judgmentally sampled real-time and historical event logs,
                                                         to verify the activities that
were being documented (see screenshots in Appendix V). C5i worked with
members of the OIT Server and Storage group to capture screenshots of
activities as the logs were generated. To verify the capture of logs, C5i
requested logs for a judgmental number of dates. 40 OIT then accessed the logs
for these dates and provided C5i with screenshots. Based on our review of the
screenshots, we confirmed that user ID and log-in/log-out times are all captured
for the
To fully verify all settings, a further in-depth analysis would have to be done to
understand the level of information captured for user activities on
                        and systems. Authorized access can be abused (e.g., files
or logs altered without authorization), which is why event log analysis is critical to
ensure appropriate access and the use of network resources. Logs should be
configured to provide sufficient information to verify user activity. Equally
important to ensuring that data is being logged is establishing the storage and
retention period for logs when an incident occurs. Incidents can go unnoticed for
a long period; therefore, retaining data for a sufficient period is necessary if
administrators and an organization are to be able to detect the causes of
security-related incidents. NIST 800-92 41 recommends that security, application,
and system logs be retained for 1 to 3 months for “moderate systems” 42 and 3 to
12 months for “high systems.”43 Additionally, NIST 800-53 has the following
specific control for audit record retention:

39
   NIST 800-53, p. F-24.
http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-final_updated-errata_05-01-2010.pdf.
40
   We requested and were provided event logs for June 21, 2006, December 18, 2006, January 17, 2011,
January 20, 2011, and Active Directory logs for December 7, 2009, December 14, 2009, December 21,
2009, December 28, 2009, January 1, 2010, January 11, 2010, January 18, 2010, January 26, 2010,
February 15, 2010, March 14, 2010, April 12, 2010, April 19, 2010, April 26, 2010, May 30 - 31, 2010,
June 1 - 3, 2010, June 30, 2010, October 23, 2010, and December 16, 2010.
41
   NIST 800-92, pp. 4-3 and ES-1, http://csrc.nist.gov/publications/nistpubs/800-92/SP800-92.pdf.
42
   A moderate system is one whose confidentiality, integrity, and availability are considered to be at a
moderate level—compromise of the system’s confidentiality, integrity, or availability would not cause grave
damage to an organization.
43
   A high system is one whose confidentiality, integrity, and availability are considered to be critical—
compromise of the system’s confidentiality, integrity, or availability cause grave damage to an organization
and its ability to conduct business.
Assessment of SEC’s Continuous Monitoring Program                                          August 11, 2011
Report No. 497
                                                 Page 15
                                  REDACTED PUBLIC VERSION
           AU-11 AUDIT RECORD RETENTION

           Control: The organization retains audit records for [Assignment:
           organization-defined time period consistent with records retention
           policy] to provide support for after-the-fact investigations of security
           incidents and to meet regulatory and organizational information
           retention requirements.

           Supplemental Guidance: The organization retains audit records
           until it is determined that they are no longer needed for
           administrative, legal, audit, or other operational purposes. This
           includes, for example, retention and availability of audit records
           relative to Freedom of Information Act (FOIA) requests, subpoena,
           and law enforcement actions. Standard categorizations of audit
           records relative to such types of actions and standard response
           processes for each type of action are developed and disseminated.
           The National Archives and Records Administration (NARA) General
           Records Schedules (GRS) provide federal policy on record
           retention. 44

Based on interviews C5i conducted with OIT, we found that                        of
storage is allocated for each server                              for logging; as
soon as this threshold is met, an automated script transfers all the logs from
each of the servers to a centralized server for storing. The job of the centralized
server is to maintain logs from the
                                    7
                            of available storage. If the logs captured in the
centralized server start to approach the                    , the OIT Server and
Storage group is responsible for increasing storage capacity to maintain the high
volume of logs. This process is compliant with the NIST 800-53 control for audit
storage. 48 Currently, the OIT Server and Storage group retains logs for one year.
These logs are stored on-site at the SEC Operations Center, in Alexandria,
Virginia, and are replicated at the Alternate Data Center (ADC), in Ashburn,
Virginia.

Certain staff in the Server and Storage group have been granted administrator-
level access for the task of verifying and reviewing audit records and event logs
for
44
     NIST 800-53, p. F-30, http://csrc.nist.gov/publications/ nistpubs/800-53-Rev3/sp800-53-rev3-




47
   Unit of measurement of computer memory equivalent to one trillion bytes or 1,000 gigabytes of
information.
48
   NIST 800-53, p. F-24, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
Assessment of SEC’s Continuous Monitoring Program                                           August 11, 2011
Report No. 497
                                                   Page 16
                                     REDACTED PUBLIC VERSION
                                        However, C5i found that a key security
principle—separation of duties—is not applied to OIT log management activities,
performed by the Server and Storage group. With separation of duties, more
than one person is needed to complete a task. The goal of separation of duties
is to promote integrity, prevent fraud, reduce potential damage from the actions
of one person and the implementation of an appropriate level of checks and
balances on an individual’s activities.

Separation of duties is a requirement of NIST 800-53, which states the following:

 Control: Access Control, AC-5 Separation of Duties

             The organization:

                 a. Separates duties of individuals as necessary, to prevent
                    malevolent activity without collusion;
                 b. Documents separation of duties; and
                 c. Implements separation of duties through assigned
                    information system access authorizations.

Supplemental Guidance. Examples of separation of duties include: (i) mission
functions and distinct information system support functions are divided among
different individuals/roles; (ii) different individuals perform information system
support functions (e.g., systems management, systems programming,
configuration management, quality assurance and testing, network security); (iii)
security personnel who administer access control functions do not administer
audit functions; and (iv) different administrators account for different roles. 49

NIST 800-92 emphasizes the separation of duties with respect to log
management as a means of preventing log tampering and manipulation. C5i
found that administrators, who have access to system,
                                       may also have the authority of altering,
modifying, and deleting logs. Consistent with the principle of separation of duties
from NIST 800-53, an individual with administrator access to configure the logs
should not be the same person to generate or review the logs. Prevention of log
tampering or altering is essential to ensure the integrity of the logs and without
separation of duties, the reliability of SEC log information is difficult to ensure.

Additionally, without fully documented and implemented policies and procedures,
SEC OIT may not be effectively and thoroughly collecting important information
with respect to Network and Systems log functions.



49
   NIST 800-53, pp. F8-F9, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
Assessment of SEC’s Continuous Monitoring Program                                        August 11, 2011
Report No. 497
                                                Page 17
                                  REDACTED PUBLIC VERSION
        Recommendation 6:

        The Office of Information Technology should complete and finalize written
        server and storage log management policies and procedures that fully
        document the roles and responsibilities for log capture, management,
        retention and separation of duties.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.


Finding 5: OIT’s    and               Disaster
Recovery Tests Were Not Fully Successful
Because Some Internal Applications Did Not
Failover
        OIT is unable to failover all of its internal applications, which
        could hinder its ability to fully and swiftly perform mission-
        critical functions if a disaster or significant disruptions occur.

Disaster recovery (DR) is the process of re-establishing an organization’s
operations in the event of a disaster or other significant event, such as a tornado,
hurricane, snowstorm, or fire. The process includes, but is not limited to, re-
activating the organization’s information systems, communicating with
employees, establishing alternate work locations for employees, and identifying
employees needed roles and responsibilities. NIST 800-53 provides guidance to
organizations covering contingency planning policy and procedures, contingency
plans, contingency training, contingency plan testing and exercises, alternate
storage sites, telecommunications service, information service backup, and
information system recovery and reconstitution. 50 NIST has also developed and
issued NIST SP 800-34, Contingency Planning Guide for Federal Information
Systems, 51 which details several aspects of the planning process for developing
a comprehensive DR plan and program, including the information system



50
   NIST, Recommended Security Controls for Federal Information Systems and Organizations, Special
Publication 800-53, Rev 3 (August 2009), app. F-CP, Contingency Planning, page F-47, http://csrc.nist.gov/
publications/nistpubs/800-53-Rev3/sp800-53-rev3-final_updated-errata_05-01-2010.pdf.
51
   NIST, Contingency Planning Guide for Federal Information Systems, Special Publication 800-34, Revision
1 (May 2010), p. 18, http://csrc.nist.gov/publications/nistpubs/800-34-rev1/sp800-34-rev1_errata-Nov11-
2010.pdf.
Assessment of SEC’s Continuous Monitoring Program                                       August 11, 2011
Report No. 497
                                               Page 18
                                 REDACTED PUBLIC VERSION
contingency planning process, information system contingency plan
development, and technical contingency planning considerations. 52

A DR plan is an information system–focused plan that is designed to restore the
operability of a target system, application, or computer facility infrastructure at an
alternate site. It applies to major disruptions in an organization’s services or
operations for an extended period of time. The DR plan may be supported by
other information system contingency plans, which are organized, coordinated
procedures that are to be activated to address the recovery of affected systems.
However, the DR plan only addresses information system disruptions that require
the relocation to an alternate site.

To assess a DR plan’s effectiveness, it must be tested to ensure it provides the
SEC’s senior-level management confidence in the Commission’s ability to restore
its systems, applications, and other computing resources, in the event of a
disaster or a significant event, such as a system disruption.

As documented in the OIG’s 2010 Annual FISMA Assessment Report, 53 the SEC
has established and maintains an agency-wide business continuity of operations
plan/DR program that is consistent with NIST, FISMA, and OMB requirements
and Federal Continuity Directive 1 (FCD1), which states that continuity plans and
programs should be developed and have well-documented policies and
procedures. 54 We did not test the SEC’s continuity/disaster recovery plans; but
merely reviewed the two specific DR tests conducted on                  and
                    and the                  re-test, and confirmed that the SEC
has policies and procedures5 for DR that comply with FCD1, as well as NIST,
FISMA, and OMB requirements.

As part of the DR process, the system owners for specific SEC systems and
applications are involved in testing the SEC’s DR plan
             to ensure the full functionality of the plan and failover of systems
and to document problems that may need attention or remediation. The system
owners and other OIT staff (i.e., Central Operations, Information Security, etc.)
are responsible for the details of each test.


52
   NIST, Contingency Planning Guide for Federal Information Systems, Special Publication 800-34, Rev 1
(May 2010), pp. vi-vii, http://csrc.nist.gov/publications/nistpubs/800-34-rev1/sp800-34-rev1_errata-Nov11-
2010.pdf.
53
   OIG, 2010 Annual FISMA Assessment Report, Report No. 489 (Mar. 6, 2011).
54
   Federal Continuity Directive 1, Federal Executive Branch Continuity Program and Requirements
(February 2008).
55
   OIT-00047-001.0, Disaster Recovery Planning Procedures, 24-04.09, IT Security Business Continuity
Management Program, SEC Implementing Instruction 24-04.09.01 (02.0), System Business Impact
Analysis, and OIT-00003-001.0, Disaster Recovery Planning Policy.
56
   Failover is the capability to switch over automatically to a redundant or standby computer server, system,
or network upon the failure or abnormal termination of the previously active application, server, system, or
network. Failover happens without human intervention and generally without warning, unlike switchover.
Assessment of SEC’s Continuous Monitoring Program                                          August 11, 2011
Report No. 497
                                                 Page 19
                                   REDACTED PUBLIC VERSION
On                SEC personnel performed the         of                           DR plan tests for
calendar year 2010. The test involved the failover of


                                 are listed below in Table 2, along with the
reasons for their lack of successfully failing over.

Table 1. Internal Applications that Did not Failover
                                                  Reason
                                               Application database                     . Per
                                               OIT, this is considered a mission-critical
                                               application.
                                               Login was successful but reports
                                               run due to
                                               issues. 58
                                               Login was successful but reports
                                                        to       issues.
                                               Login was successful, but USA Staffing was
                                               not available at the
Source: OIG-generated data.

On                          the SEC system owners and the Disaster Recovery
Group conducted the                         DR test and selected      internal
applications to test (see Appendix IV for a list of the applications). During this
test, all but one internal application—             —successfully failed over and
back.             did not fail over successfully because an incorrect version of the
application had been installed at the          . The           application has been
defined as mission-critical. The         applications that did not fail over
successfully in the                   test failed over successfully in the
            test, demonstrating improvement in OIT’s testing and remediation of
the previously found issues. The                   est was conducted specifically for
the internal system with                                   , and did not include the
External Applications because they are not operated using                      Table 2
provides a comparison of the results from the
       DR tests.




57
     The                 function enables the user to view a summary of               or previously executed
        for a specific           for specific
http://wapps.sec.gov/oitintranet/oit_request/oit_learn/Bluesheet%205.0/Script%202A%20-
%20How%20to%20Perform%20an%20Equity%20Cleared%20Search_Revised%20.pdf
58
          is a web-based reporting environment where reports can be created, generated, edited, and shared
with other users. It also provides the capability for e-mail distribution of reports.
59
             is used by SEC staff in determining and handling cases where disgorgements and penalties are
to be dispersed to investors. OIT provided C5i with a list of mission critical applications which identified the
           application, among others.
Assessment of SEC’s Continuous Monitoring Program                                            August 11, 2011
Report No. 497
                                                  Page 20
                                    REDACTED PUBLIC VERSION
Table 2. Comparison of                                                   With
Results of
                                                                        Percentage
                                                    Passed/
                     Test Date        Tested                   Failed    Passed/
                                                    Restored
                                                                         Restored
 Internal                                40           36         4         90%
 Applications                            32           31         1         97%
 External                                12           12         0        100%
 Applications                            n/a          n/a       n/a         n/a
Source: OIG-generated data.

Although the SEC experienced a more favorable DR test result in                    the
         application still did not fail over successfully because different versions
of the application are operating at         and at        which prevented the system
owners from accessing the application.

On                     OIT conducted a retest of applications previously tested in
the                              DR test. The retest consisted of      internal
applications. In this retest, according to a spreadsheet provided by OIT that
described the failover test results of all the applications,    internal, mission-
                                                  60
critical applications                                and one non-mission critical
internal application,                  did not fail over successfully as a result of
the reporting functions not operating as expected due to problems with the report
server. Although the reporting function did not operate as expected, the core
applications did operate as expected. Table 2 shows the results of the
                                and the                              .

Table 3. Comparison of                                                          With
Results of
                                                                        Percentage
                                                    Passed/
                     Test Date        Tested                   Failed    Passed/
                                                    Restored
                                                                         Restored
 Internal                                32            31        1         97%
 Applications                            42            39        3         93%
Source: OIG-generated data.

Our comparison of the         and                    and                  test results
provided by OIT indicate that different criteria was used by the DR team to
determine the pass or fail of an application. In addition, we found that there is no
documentation that specifies the criteria to be used by the DR team to determine
the pass or fail of an application in the test. As a result, there is confusion about
the success or failure of the application test and the documented result which
can lead to a misinterpretation of OIT’s DR test results. For example, the
spreadsheets provided to C5i indicate that in the                       , the
application has a failover status of “Fail” due to “IQ Issues” – the reports function


Assessment of SEC’s Continuous Monitoring Program                        August 11, 2011
Report No. 497
                                       Page 21
                              REDACTED PUBLIC VERSION
not operating properly. However, based on C5i’s conversations with OIT
personnel, applications are considered successfully tested, i.e., passed, if the
end user of the system is able to perform their basic functions after the system
has been recovered.

The main objective of a DR test is to verify an organization’s ability to restore
applications and systems in accordance with a specific recovery time objective.
Based on the results of the
             C5i determined that if a disaster or other significant event were to
occur, some SEC applications and systems would likely be inaccessible to users
and negatively affect the SEC’s normal business operations.

       Recommendation 7:

       The Office of Information Technology should require that the
               and the                           have consistent, appropriately
       installed application and system configuration files to ensure the ability to
       successfully failover and/or restore in the event of a disaster.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 8:

       The Office of Information Technology should fully document and
       communicate the criteria used to determine the success or failure of an
       application during the Disaster Recovery tests to ensure consistent
       reporting of results and alleviate confusion.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.




Assessment of SEC’s Continuous Monitoring Program                      August 11, 2011
Report No. 497
                                       Page 22
                            REDACTED PUBLIC VERSION
Finding 6: OIT Has Not Sufficiently Conducted an
Analysis to Determine Whether its Information
System Backup Retention Period Is Sufficient
        Given the criticality of Commission data, the SEC’s
        information system backup retention period of               may
        not be sufficient. In the event of a full system failure, the
        only data that could be restored would be from the previous
                 , resulting in potential data loss that would negatively
        affect the Commission’s business operations. OIT has not
        conducted a recent analysis to determine whether the
             period is sufficient.

Information system backup consists of copying an organization’s data, files, or
the contents of a hard drive or a server to preserve critical business data and
other needed information so that they can be restored in the event of a data loss
event (e.g., hardware or software failure, natural disaster, file corruption, theft, or
fire). An information system backup retention period is the length of time an
organization can go back to perform a “restore” with minimal or no loss of data.
Organizations have a variety of options for backing up their information systems
including tapes, zip drives, flash drives, CDs, DVDs, removable drives, remote
servers, and network connections. OIT currently uses Digital Linear Tapes, a
magnetic tape storage technology, to back up the Commission’s information
systems. However, OIT has informed us that by the end of calendar year 2011,
the office will replace tapes with storage disks.

NIST Backup and Retention Policy. NIST has not issued specific guidance on
backup retention periods. According to NIST 800-34, “[b]ackup and retention
schedules should be based on the criticality of the data being processed and the
frequency that the data is modified.”61 NIST 800-92 also states that “…more
stringent requirements for performing log preservation in support of investigations
(e.g., internal investigations, computer security incident handling) should override
the standard organization-established values for log retention as applicable.”

OIT’s Backup and Retention Policies and Procedures. According to SECR
23-2a, Safeguarding Non-Public Information, and SEC Administrative Regulation
(SECR) 24-2.6, Enterprise Backup of Electronic Data, all backup tapes
processed at the SEC offices and divisions are considered sensitive because
they contain privacy-related information, such as PII, and critical and sensitive
financial data. SEC Operating Procedure (OP) 24-05.02.04.07, Safeguarding
Procedures for Non-Public Backup Media, requires that all backup media,

61
  NIST 800-34, p. 57, http://csrc.nist.gov/publications/nistpubs/800-34-rev1/sp800-34-rev1_errata-Nov11-
2010.pdf, May 2010.
Assessment of SEC’s Continuous Monitoring Program                                       August 11, 2011
Report No. 497
                                               Page 23
                                  REDACTED PUBLIC VERSION
including tapes, be appropriately marked to identify their content as SEC
sensitive data. 62

SECR 24-2.6, Enterprise Backup of Electronic Data, states the following:

     a) All critical files are backed up on a nightly basis;

     b) A full backup of each server that houses user and/or application
        data shall be performed weekly. After             the tapes are
        returned to OPC. Upon return of the tapes, they shall be recycled
        into the backup rotation. Regional and district offices shall send
        their full backup tapes to the designated SEC backup specialist on
        the first full workday after the backup was performed. If the full
        backup was not successful, another full backup must be taken as
        soon as possible, but not later than                     and

     c) On the days that a full backup is not performed, an incremental
        backup shall be performed. 63

C5i interviewed personnel responsible for performing OIT’s backups to obtain a
better understanding of how often OIT conducts backups, the length of time OIT
maintains the backups, the criticality of the data being backed up, and where
backup tapes were stored, as well as to ascertain whether OIT’s current backup
policies and procedures meet the NIST 800-34 standard. 64

C5i found that           are performed at                     and individual SEC
regional offices, which retain a copy of the               and
      and                 . Tapes are retained and are available for 30 days after
the backup date. Once             has passed, the tapes are then shipped from the
regional office and from                     and all             of the tapes are
recycled (reused) for future backups. For example, a backup tape made
ago would be available if needed, but a tape made                     ago would
already have been recycled and the data would no longer be available.

Data Replication. To further prevent data loss, OIT replicates65 data in real time
between       and       The SEC has          telecommunication links to circuits
between       and       These circuits are fully active and provide
telecommunication connectivity over the       links such that if one circuit were

62
   OP 24-05.02.04.07, Safeguarding Procedures for Non-Public Backup Media (Mar. 14, 2007).
63
   SECR 24-2.6, Enterprise Backup of Electronic Data (May 15, 2003).
64
   NIST 800-34, http://csrc.nist.gov/publications/nistpubs/800-34-rev1/sp800-34-rev1_errata-Nov11-
2010.pdf, May 2010.
65
   Data replication is the process of copying data from one data source to another source while maintaining
identical copies of the data that are synchronized. Any changes made to the original content should be
posted to the copy of the data at the other location. This will enable two or more copies of data to be
available.
Assessment of SEC’s Continuous Monitoring Program                                        August 11, 2011
Report No. 497
                                                Page 24
                                  REDACTED PUBLIC VERSION
to fail, there would still be connectivity on the              circuits. If
circuits were lost, a backup circuit from                         that is routed
through                        would provide telecommunication connectivity. If the
replication process itself had an issue, replication would be suspended until the
link was back up. For all storage systems being replicated, connectivity would
then resume without data loss, but the replication would have to catch up.

Analysis of Retention Period. C5i inquired from OIT as to its basis for
determining that its information backup retention period should be             OIT
informed us that it has not recently conducted an analysis to determine if the
           is sufficient. OIT also has indicated that it has not reached out to its
customers to determine if any customers would request or even require a longer
backup retention period. Based upon the criticality of data, we believe that it is
important to conduct a thorough analysis to determine whether a
retention period is sufficient.

       Recommendation 9:

       The Office of Information Technology should analyze the level of criticality
       of the Commission data being                and the needs and wants of its
       customers, and establish an appropriate backup retention period based on
       the results of that analysis and that meets the requirements of the
       Commission.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.


Finding 7: All SEC                                       are Not

       Currently, the                 for the Regional Offices are
       stored at the
       However, the                  for the                   are
       stored onsite and not at a secure off-site facility.

As outlined above in Finding 6, SEC OIT has documented policies and
procedures for performing backup of critical SEC data which are compliant with
NIST guidance. However, during our interviews, C5i was informed that OIT



Assessment of SEC’s Continuous Monitoring Program                     August 11, 2011
Report No. 497
                                       Page 25
                            REDACTED PUBLIC VERSION
stores                for the SEC’s 11 regional offices66 and              but the
              for the        are stored       .
We further found that OIT has a contract with an off-site storage vendor that
allows OIT to send tapes to the vendor twice a week. However, OIT staff
informed C5i that tapes had not been shipped to the off-site storage vendor since
March 2008.

NIST 800-34 Contingency Planning Guide for Federal Information Systems
provides the following guidance:

         It is good business practice to store backed-up data offsite. Commercial
         data storage facilities are specially designed to archive media and protect
         data from threatening elements. If using offsite storage, data is backed up
         at the organization’s facility and then labeled, packed, and transported to
         the storage facility. If the data is required for recovery or testing purposes,
         the organization contacts the storage facility requesting specific data to be
         transported to the organization or to an alternate facility. Commercial
         storage facilities often offer media transportation and response and
         recovery services. When selecting an offsite storage facility and vendor,
         the following criteria should be considered:

             •   Geographic area: distance from the organization and the
                 probability of the storage site being affected by the same
                 disaster as the organization’s primary site;
             •   Accessibility: length of time necessary to retrieve the data
                 from storage and the storage facility’s operating hours;
             •   Security: security capabilities of the shipping method,
                 storage facility, and personnel; all must meet the data’s
                 security requirements;
             •   Environment: structural and environmental conditions of the
                 storage facility (i.e., temperature, humidity, fire prevention,
                 and power management controls); and
             •   Cost: cost of shipping, operational fees, and disaster
                 response/recovery services. 67

Thus, OIT is storing                           in violation of NIST guidance,
and even though OIT has a contract with an off-site vendor that could be utilized
to store               for the           as per NIST guidance, OIT is not
currently using this mechanism to send the                      offsite.



66
   The SEC’s 11 regional offices are in Atlanta, Boston, Chicago, Denver, Fort Worth, Miami, Los Angeles,
New York, Philadelphia, Salt Lake City, and San Francisco.
67
   NIST SP 800-34 Section 3.4.2, p 21, http://csrc.nist.gov/publications/nistpubs/800-34-rev1/sp800-34-
rev1_errata-Nov11-2010.pdf.
Assessment of SEC’s Continuous Monitoring Program                                        August 11, 2011
Report No. 497
                                                Page 26
                                  REDACTED PUBLIC VERSION
           Recommendation 10:

           The Office of Information Technology should ensure that
           from the Commission’s                    are sent to an


           Management Comments. OIT concurred with this recommendation.
           See Appendix VII for management’s full comments.

           OIG Analysis. We are pleased that OIT concurred with this
           recommendation.


Finding 8: OAS’s Draft Contractor Entry and Exit
Procedures Should be Revised to Include More
Comprehensive Procedures
         OAS’s draft Commission-wide contractor entrance and exit
         policies lack the comprehensiveness of current OIT-specific
         procedures.

OIT's Contractor Entry and Exit Operating Procedures. OIT has developed
comprehensive operating procedures for contractor entry and exit, in its
Contractor Entry and Exit, OP 24-06.04.01.01(01.2) guidance. Without
comprehensive procedures that fully outline specific roles and responsibilities,
the Commission risks the improper entry and exit of contractors, which can cause
projects to be delayed because of entry issues, contractor accounts to remain
active after the contractor’s exit, and improper tracking of SEC assets, including
laptops and RSA tokens.

Contractors are used throughout the federal government to augment department
and agency workforces and to provide professional and management support
services. Generally, federal government departments and agencies have
processes and procedures to bring contractors on board and to terminate them
when their services are no longer needed. In alignment with other federal
departments and agencies, OIT has developed Contractor Entry and Exit, OP 24-
06.04.01.01(01.2) procedures, which contains its operating procedures for the
entry and exit of contractors. 68 OIT’s procedures also include two forms to be
used for OIT contractor entry and exit. The contractor entry form is used to
request hardware and local area network access for an entering contractor and
specifies pertinent documentation that the contractor must complete, such as a
nondisclosure agreement and an authorization for credit check, in order to be

68
     Contractor Entry and Exit, OP 24-06.04.01.01(01.2) (July 18, 2006).
Assessment of SEC’s Continuous Monitoring Program                          August 11, 2011
Report No. 497
                                                  Page 27
                                    REDACTED PUBLIC VERSION
processed for a badge. 69 The contractor exit form is used to document the return
of a departing contractor’s badge, equipment, and RSA token, and includes a
section on reassigning equipment. 70

Overall, C5i found OIT’s entry and exit procedures for contractors to be
comprehensive and sufficient. The entry process for OIT contractors requires
completion of a background check and nondisclosure agreement, processing of
credentials required to access SEC facilities and network systems,
documentation of equipment issued (e.g., laptop, Blackberry), coordination of
workspace for contractors working on-site at the SEC, and completion of the
Contractor Entry Form. The exit process for OIT contractors includes, but is not
limited to, documenting the roles and responsibilities of the staff for terminating
accounts, collection of SEC equipment and badges, and reallocation of
workspace.

C5i judgmentally selected 6 of 30 OIT Contracting Officer’s Technical
Representatives (COTR) to interview and determine whether they were aware of
current OIT policies and procedures pertaining to contractor entry and exit. C5i
found that all 6 were aware of the OIT’s contractor entry and exit policies and
procedures.

OAS’s Draft Contractor Entry and Exit Policy. OAS staff provided C5i with its
draft SEC contractor entrance and exit policy, Contractor Personnel Employment
Entrance and Exit Procedures, dated November 29, 2010, which covers all SEC
contractors, including OIT contractors, and will supersede the operating
procedures OIT currently uses to oversee the entry and exit of OIT contractors.
OAS was not initially aware that OIT had already developed comprehensive
entrance and exit procedures and did not consider or review OIT’s procedures in
drafting its overarching policies and procedures for the Agency.

C5i’s review of OAS’s draft policy determined that the OAS policy lacks certain
specific details—details that are included in OIT’s operating procedures. We
further determined that the OAS draft policy is insufficient. Specifically, C5i found
that the OAS draft procedures lack full coverage of the roles and responsibilities
of administrative officers, COTRs, and contractor points of contact and did not
contain references to other pertinent or applicable policies and procedures.
Without comprehensive procedures that fully outline the contractors specific roles
and responsibilities, the Commission risks the improper entry and exit of
contractors, which can cause projects to be delayed because of entry issues,
contractor accounts to remain active after the contractor’s exit, and the improper
tracking of SEC assets, such as laptops and RSA tokens.



69
     OP 24-06.04.01.02.T01.
70
     OP 24-06.04.01.02.T02.
Assessment of SEC’s Continuous Monitoring Program                     August 11, 2011
Report No. 497
                                       Page 28
                              REDACTED PUBLIC VERSION
       Recommendation 11:

       The Office of Administrative Services should work with the Office of
       Information Technology to develop and implement a comprehensive
       Commission–wide policy for the Entry and Exit of Contractors.

       Management Comments. OAS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OAS and OIT concurred with this
       recommendation.

       Recommendation 12:

       After the Office of Administrative Services (OAS) contractor entry and exit
       policy, Contractor Personnel Employment Entrance and Exit Procedures,
       has been finalized and approved, OAS should provide training and
       communicate with responsible parties, such as Contracting Officers,
       Contracting Officer’s Technical Representatives, and Inspection and
       Acceptance Officials, regarding their roles and responsibilities and proper
       procedures with respect to contractor entry into and exit from the
       Commission.

       Management Comments. OAS concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OAS concurred with this
       recommendation.


 Finding 9: SEC Lacks Procedures to Ensure
 Timely Termination of Network Accounts
       No cross-referencing procedures exist at the Commission to
       ensure the timely termination of network accounts for
       separated or terminated users. Without such procedures,
       the accounts of terminated employees and contractors could
       remain active, allowing unauthorized and potentially
       malicious users to gain access to sensitive SEC data or
       systems.

 According to NIST 800-53, organizations should manage information
 system accounts, and should deactivate temporary accounts that are no


Assessment of SEC’s Continuous Monitoring Program                    August 11, 2011
Report No. 497
                                       Page 29
                            REDACTED PUBLIC VERSION
     longer required and deactivate accounts of terminated or transferred
     users, and review accounts. 71

     As C5i reported in OIG’s 2010 Annual FISMA Executive Summary Report, C5i
     found network accounts for employees who had separated from the
     Commission that had not been disabled in a timely manner. 72 Specifically, the
     accounts for 14 employees remained active after their last day of employment
     at the SEC.

     Through additional subsequent interviews with OIT personnel and further
     assessment of the procedures surrounding account terminations, C5i found that
     although there is a process in place for terminating the accounts of separated
     employees and contractors, no verification procedures currently exist to ensure
     that accounts have been terminated.

     C5i found that the same process is used for account termination and account
     creation. In both situations, OIT OP 24-05.01.02.T01, Request for Account
     Creation, Modification, Termination, or Transfer, is used. The IT Specialist or
     administrative contact for the relevant organization is responsible for
     completing the form and submitting it to the OIT Technical Assistance Center–
     Local Area Network Account Management Group, which is to enable or disable
     the account on the employee’s separation date, as documented on the form. In
     the event of an involuntary termination, the Technical Assistance Center and
     OIT Security are immediately notified of the termination and the account is
     terminated.

     Through additional interviews with OIT personnel and further assessment of
     OIT’s account termination procedures, C5i found that although OIT is following
     its internal account termination process, there are no procedures to verify that
     all termination forms have been received and processed. Further, C5i found
     that there are no formal procedures or system for cross-referencing OIT user
     account termination records with Office of Human Resources, OAS, or
     Contracting Officer/COTR/Inspection and Acceptance Official records of
     employee and contractor terminations.

     Without a process to ensure that all SEC employee and contractor termination
     forms have been received and processed by OIT, the SEC is unable to
     maintain an accurate and complete user account inventory and disable
     accounts in a timely manner. As a result, the accounts of terminated
     employees and contractors could remain active, permitting unauthorized and
     potentially malicious users access to sensitive SEC data or systems.


71
   NIST 800-53, p. F-3, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-final_updated-
errata_05-01-2010.pdf.
72
   OIG, 2010 Annual FISMA Executive Summary Report, Report No. 489 (Mar. 6, 2011).
Assessment of SEC’s Continuous Monitoring Program                                        August 11, 2011
Report No. 497
                                                Page 30
                                  REDACTED PUBLIC VERSION
       Recommendation 13:

       The Office of Human Resources, Office of Information Technology (OIT),
       Office of Administrative Services, and the contracting office should
       perform, at a minimum, a                 of separated/terminated
       employees and contractors to ensure that OIT has received all account
       termination notices and has deactivated the appropriate accounts in a
       timely manner.

       Management Comments. OHR, OIT and OAS concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OHR, OIT and OAS concurred with
       this recommendation.




Assessment of SEC’s Continuous Monitoring Program                August 11, 2011
Report No. 497
                                       Page 31
                            REDACTED PUBLIC VERSION
                                                                         Appendix I


                               Abbreviations

ADC                     Alternate Data Center
BDRA                    Broker Dealer Risk Assessment
BLUE                    Bluesheet Management Systems
CATS                    Case Activity Tracking System
CMDB                    Configuration Management Database
COOP                    Continuity Of Operations Plan
COTR                    Contracting Officer’s Technical Representative
DR                      Disaster Recovery
EAUA                    External Application User Authentication
FACTS                   Filing Activity Tracking System
FDC1                    Federal Continuity Directive 1
FISMA                   Federal Information Security Management Act
FY                      Fiscal Year
IT                      Information Technology
NIST                    National Institute of Standards and Technology
NRSI                    Name Relationship Search Index
NSAR                    Investment Company Semi-Annual Report
OAS                     Office of Administrative Services
OHR                     Office of Human Resources
OIG                     Office of Inspector General
OIT                     Office of Information Technology
OMB                     Office of Management and Budget
OPC                     SEC Operations Center, Alexandria, Virginia
PII                     Personally Identifiable Information
PTS                     Property Tracking System
SDCAT                   Secure Data Collection Analysis Tool
SEC or
Commission              U.S. Securities and Exchange Commission




Assessment of SEC’s Continuous Monitoring Program                   August 11, 2011
Report No. 497
                                       Page 32
                            REDACTED PUBLIC VERSION
                                                                                           Appendix II


                           Scope and Methodology

Scope. C5i obtained information from OIT and OAS pertaining to the SEC’s
Continuous Monitoring Program. In addition, C5i interviewed staff members from
all areas of OIT—End User Technology, Security, Server Group, Disaster
Recovery Participants, Policy Development—to fully understand the roles and
responsibilities of each organization and verify compliance with policies and
procedures.

C5i conducted its assessment from November 2010 through January 2011. The
scope of C5i’s work consisted of reviewing the following areas defined by NIST
800-53:

     •   Access Control
     •   Awareness and Training
     •   Audit and Accountability
     •   Security Assessment and Authorization
     •   Configuration Management
     •   Contingency Planning
     •   Identity and Authentication
     •   Incident Response
     •   Maintenance
     •   Media Protection
     •   Physical and Environmental Protection
     •   Planning
     •   Personnel Security
     •   Risk Assessment
     •   System and Services Acquisition
     •   System and Communications Protection
     •   System and Information Integrity 73

C5i used the guidance from NIST 800-53; other NIST, OMB, and FISMA
guidance; and industry best practices in C5i’s evaluation and to support its
conclusions and recommendations.

Based on the results of our recent annual FISMA assessment, 74 C5i was aware
of areas on which it wanted to focus as well as processes and procedures that
needed to be strengthened or improved. In addition to reviewing the findings



73
   NIST 800-53, pp. 2-7, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-final_updated-
errata_05-01-2010.pdf (accessed on Jan. 29, 2011).
74
   OIG, 2010 Annual FISMA Executive Summary Report, Report No. 489 (Mar. 6, 2011).
Assessment of SEC’s Continuous Monitoring Program                                        August 11, 2011
Report No. 497
                                                Page 33
                                  REDACTED PUBLIC VERSION
                                                                                     Appendix II


from recent reports, 75 C5i interviewed OIT personnel, reviewed documents
provided, and reviewed SEC policies and procedures to find other areas in need
of improvement. Those areas were as follows:

     •   Access Control
     •   Audit and Accountability
     •   Configuration Management
     •   Contingency Planning
     •   Identity and Authentication
     •   Planning
     •   System and Services Acquisition
     •   System and Communications Protection
     •   System and Information Integrity

The review included an evaluation of the major security components for FISMA
2010 in order to provide recommended OIG responses to the OMB online
questionnaire (i.e., information security and privacy items). C5i also completed
all data collection instruments related to FISMA 2010 and

     •   performed the necessary evaluation procedures to answer those
         questions in OMB Memorandum 10-15,
     •   compiled an executive summary for the SEC’s OIG, and
     •   performed a detailed security evaluation of two of the SEC’s major
         security components.

The scope also included a review of

     •   test results from disaster recovery exercises,
     •   asset management/tracking database,
     •   screen captures of logs, and
     •   all SEC policies and procedures pertinent to the required areas.

Methodology. To meet the overall objectives of the assessment of the SEC’s
continuous monitoring program, C5i conducted interviews with key personnel,
made independent observations, and examined documentation provided by SEC
officials. Key personnel included system owners, business line managers, OIT
representatives, and OIG personnel. These interviews were further held to
determine issues that were germane to completing this assessment. C5i
reviewed pertinent records and supporting documentation (policies, procedures,
roles and responsibilities) to address the evaluation objective. C5i’s review of
policies and procedures also included discussions with SEC officials and covered
the areas identified in the scope.

75
  OIG, Assessment of SEC’s Privacy Program, Report No. 485 (Sep. 29, 2010), and OIG, 2010 Annual
FISMA Executive Summary Report, Report No. 489 (Mar. 6, 2011).
Assessment of SEC’s Continuous Monitoring Program                                  August 11, 2011
Report No. 497
                                             Page 34
                                REDACTED PUBLIC VERSION
                                                                      Appendix II



C5i staff members were provided with Certification and Accreditation packages,
including plan of action and milestones, incident response documentation,
pertinent SEC policies and procedures, DR plans, and after-action reports, for
review and evaluation to ensure compliance with FISMA, NIST, and OMB
guidance. C5i also reviewed an extensive collection of system data, policies,
procedures, and other documentation relating to the systems and issues
identified above. C5i relied on its analysis of all the information provided from
various sources, including testimonial evidence, prior review coverage, and all
documentation provided.

Management Controls. Consistent with the objectives of the review, C5i did not
assess OIT’s management control structure or its internal controls. C5i
evaluated existing controls at the Commission specific to the assessment which
are detailed above in the scope. C5i relied on information requested and
supplied by OIT and interviews with OIT personnel to thoroughly understand
OIT’s management controls pertaining to policies, methods of operation, and
procedures.

Use of Computer-Processed Data. C5i did not assess the reliability of OIT’s
computers because it did not pertain to C5i’s review objectives. Further, C5i did
not perform any tests on the general or application controls over OIT’s automated
systems, as this was not within the scope of the review. C5i believes that the
information that was retrieved from SEC’s systems, as well as the requested
documents provided to us, was sufficient, reliable, and adequate to use in
meeting C5i’s stated objectives. C5i reviewed the following computer-processed
data (i.e., Excel spreadsheets and MS Project plans) that OIT staff members
provided to us:

   •   DR test scripts, test results, and after-action report,
   •   compliance workbook detailing the status of Certification and Accreditation
       of SEC systems,
   •   screenshots of system logs
   •   list of OIT COTR’s, and
   •   differences between the SEC production environment and the OIT test
       environment.

Prior OIG Coverage. The following four prior OIG reports are relevant to this
review:

   •   OIG Report No. 489, 2010 Annual FISMA Executive Summary
       Report, issued on March 3, 2011, which contained eight
       recommendation to strengthen the commission’s security posture.



Assessment of SEC’s Continuous Monitoring Program                   August 11, 2011
Report No. 497
                                       Page 35
                            REDACTED PUBLIC VERSION
                                                                        Appendix II


   •   OIG Report No. 485, Assessment of the SEC’s Privacy Program,
       issued on September 29, 2010, which contained 20
       recommendations to strengthen and improve the Commission’s
       security posture for protecting personally identifiable information.


   •   OIG Report No. 476, Evaluation of the SEC Encryption Program,
       issued on March 26, 2010, which contained three
       recommendations to strengthen the IT management controls for
       safeguarding the Commission’s information.

   •   OIG Report No. 475, Evaluation of the SEC Privacy Program,
       issued on March 26, 2010, which contained one recommendation
       to manage and operate the privacy program with appropriate
       internal controls, privacy controls, and oversight.

Judgmental Sampling. C5i identified a population (universe) of five SEC
contractors, employed by C5i, assigned to this assessment to test the adherence
of help desk staff to the procedures for password reset requests. Each test was
performed via telephone—three from SEC offices, one from C5i offices, and one
from a personal cell phone.

C5i personnel sat with OIT personnel to perform a review of logs to verify
historical data. The C5i technician judgmentally requested logs for ad hoc dates,
which were retrieved for the technician in real time.




Assessment of SEC’s Continuous Monitoring Program                     August 11, 2011
Report No. 497
                                       Page 36
                            REDACTED PUBLIC VERSION
                                                                        Appendix III


                        Criteria and Guidance

OMB Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management (April
21, 2010). Provides instructions for meeting agency FY 2010 reporting
requirements under the Federal Information Security Management Act of 2002
(Title III, Pub. L. No. 107-347). It also includes reporting instructions for agency
privacy management programs.

NIST SP 800-34, Contingency Planning Guide for Federal Information Systems,
(May 2010). Provides guidance on developing and implementing a Contingency
Plan for information systems.

NIST SP 800-40, Version 2.0, Creating a Patch and Vulnerability Management
Vulnerability (November 2005). This document provides guidance for
establishing and maintaining an effective patch and vulnerability management
program.

NIST SP 800-53, Revision 3, Recommended Security Controls for Federal
Information Systems and Organizations, Special Publication 800-53, Revision 3
(Updated May 1, 2010). Provides guidelines for selecting and specifying security
controls for information systems supporting the executive agencies of the federal
government.

NIST SP 800-86, Guide to Integrating Forensic Techniques Into Incident
Response (August 2006). Provides detailed information on establishing a
forensic capability, including the development of policies and procedures. Its
focus is primarily on using forensic techniques to assist with computer security
incident response, but much of the material is also applicable to other situations.

NIST SP 800-92, Guide to Computer Security Log Management (September
2006). Provides guidance on the generation, review and retention of computer
logs and log data.

NIST SP 800-123, Guide to General Server Security (July 2008). Provides
guidance for the securing servers deployed on a network.

Federal Information Security Management Act of 2002, (Title III, Pub. L. No.
107-347, Dec. 17, 2002). Requires each federal agency to develop, document,
and implement an agency-wide program providing security for the information
and information systems that support the operations and assets of the agency,
including those provided or managed by another agency, contractor, or other
source.

Assessment of SEC’s Continuous Monitoring Program                      August 11, 2011
Report No. 497
                                       Page 37
                            REDACTED PUBLIC VERSION
                                                                     Appendix III


E-Government Act of 2002, (Pub. L. No. 107-347) (Dec. 17, 2002). The
purpose of this act is to improve the management and promotion of electronic
government services and processes.

Federal Information Processing Standard Publication 199 (FIPS 199),
Standards for Security Categorization of Federal Information and Information
Systems (February 2004). Provides guidance on the proper categorization of an
information system based on the security level of the information contained in the
system.

Federal Information Processing Standard Publication 200 (FIPS 200),
Minimum Security Requirements for Federal Information and Information
Systems (March 2006). Outlines the minimum security requirements for the
security of federal information systems.

SEC Policies:

   •   OIT-00047-001.0, Disaster Recovery Planning Procedures
       (February 4, 2003)
   •   OIT 24-04.09, IT Security Business Continuity Management
       Program (December 12, 2005)
   •   SEC Implementing Instruction 24-04.09.01 (02.0), System Business
       Impact Analysis (December 12, 2005)
   •   OIT-00003-001.0, Disaster Recovery Planning Policy (August 6,
       2002)
   •   SEC Implementing Instruction II 24-04.06.01 (01.1), Identification
       and Authentication (July 9, 2008)
   •   OIT 00015.002.0, Asset Management Procedure (July 8, 2003)
   •   OIT-00062-003.0, Procedure for Documenting Permanent and
       Temporary IT Asset Transactions (March 18, 2003)
   •   OIT 41-07-007-001.0, Password Reset Procedures for Remote and
       LAN Accounts (April 16, 2002)
   •   OIT Implementing Instruction 24-05.04.03, Patch Management
       (December 28, 2005)
   •   OIT 24-05.02.04.07, Safeguarding Procedures for Non-Public
       Backup Media (March 14, 2007)
   •   SECR 24-2.6, Enterprise Backup of Electronic Data (May 15, 2003)
   •   OD-24-05.09 (01.0), IT Asset Management Program (July 30,
       2009)
   •   OIT-00062-003.0, Procedure for Documenting Permanent and
       Temporary IT Asset Transactions (March 18, 2003)
   •   OP 24-06.04.01.01(01.2), Contractor Entry and Exit (July 18, 2006)
   •   Draft OAS Policy, Contractor Personnel Employment Entrance and
       Exit Procedures
   •   OP 24-06.04.01.02.T01, Contractor Entry Form (March 27, 2007)
Assessment of SEC’s Continuous Monitoring Program                   August 11, 2011
Report No. 497
                                       Page 38
                            REDACTED PUBLIC VERSION
                                                                     Appendix III


   •   OP 24-06.04.01.02.T02, Contractor Exit Form (July 18, 2006)
   •   OIT OP 24-05.01.02.T01, Request for Account Creation,
       Modification, Termination, or Transfer (May 23, 2006)




Assessment of SEC’s Continuous Monitoring Program                August 11, 2011
Report No. 497
                                       Page 39
                            REDACTED PUBLIC VERSION
                                                                   Appendix IV


                                               for
                   External and Internal Applications

        Table 4.                                              ,

                                 External Applications




        Source: OIG-generated.




Assessment of SEC’s Continuous Monitoring Program          August 11, 2011
Report No. 497
                                           Page 40
                                 REDACTED PUBLIC VERSION
                                                                     Appendix IV


        Table 5. Internal Applications              During
               Internal Applications




Assessment of SEC’s Continuous Monitoring Program            August 11, 2011
Report No. 497
                                           Page 41
                               REDACTED PUBLIC VERSION
                                                                   Appendix IV

               Internal Applications




        Source: OIG-generated.




.




Assessment of SEC’s Continuous Monitoring Program          August 11, 2011
Report No. 497
                                           Page 42
                                 REDACTED PUBLIC VERSION
                                                       Appendix V


                                 Screenshots

Figure 1. Event Logs:




Source: Generated by OIT,

Figure 2. Event Logs: Historical Archives




Source: Generated by OIT,


Assessment of SEC’s Continuous Monitoring Program     August 11, 2011
Report No. 497
                                       Page 43
                            REDACTED PUBLIC VERSION
                                                       Appendix V


Figure 3. Event Logs: Historical Archives




Source: Generated by OIT,




Assessment of SEC’s Continuous Monitoring Program     August 11, 2011
Report No. 497
                                       Page 44
                            REDACTED PUBLIC VERSION
                                                       Appendix V


Figure 4. Active Directory Logs:




Source: Generated by OIT,

Figure 5. Active Directory Logs:




Source: Generated by OIT,



Assessment of SEC’s Continuous Monitoring Program     August 11, 2011
Report No. 497
                                       Page 45
                            REDACTED PUBLIC VERSION
                                                       Appendix V


Figure 6. Active Directory Logs:




Source: Generated by OIT,

Figure 7. Active Directory Logs:




Source: Generated by OIT,

Assessment of SEC’s Continuous Monitoring Program     August 11, 2011
Report No. 497
                                       Page 46
                            REDACTED PUBLIC VERSION
                                                       Appendix V


Figure 8. ADC




Source: Generated by OIT,

Figure 9. ADC




Source: Generated by OIT,




Assessment of SEC’s Continuous Monitoring Program     August 11, 2011
Report No. 497
                                       Page 47
                            REDACTED PUBLIC VERSION
                                                       Appendix V


Figure 10. OPC




Source: Generated by OIT,




Assessment of SEC’s Continuous Monitoring Program     August 11, 2011
Report No. 497
                                       Page 48
                            REDACTED PUBLIC VERSION
                                                                      Appendix VI


                     List of Recommendations

Recommendation 1:

The Office of Information Technology (OIT) should review the Commission’s
Microsoft Active Directory settings and make the necessary changes to ensure
that OIT password policy requirements, as documented in the Implementing
Instruction, are strictly enforced for both on-site and remote users and that the
documented password structure set forth in OIT policy is strictly enforced.

Recommendation 2:

The Office of Information Technology help desk should begin using a random
password generator to create temporary passwords and require users to
           on their

Recommendation 3:

The Office of Information Technology (OIT) should implement training for
           personnel to ensure that           technicians consistently verify
users’ information in accordance with OIT policy when they receive requests to
change user accounts and passwords.

Recommendation 4:

The Office of Information Technology should ensure that security controls
configurations that are applied in the production environment are identical with
those applied in the testing environment.

Recommendation 5:

The Office of Information Technology should develop and implement written
procedures to ensure consistency in the Commission’s production and testing
environments. These procedures should detail the software and hardware
components in both environments and specify the actions required to maintain
consistent environments.




Assessment of SEC’s Continuous Monitoring Program                    August 11, 2011
Report No. 497
                                       Page 49
                            REDACTED PUBLIC VERSION
                                                                       Appendix VI


Recommendation 6:

The Office of Information Technology should complete and finalize written server
and storage log management policies and procedures that fully document the
roles and responsibilities for log capture, management, retention and separation
of duties.

Recommendation 7:

The Office of Information Technology should require that the
and the                           have consistent, appropriately installed
application and system configuration files to ensure the ability to successfully
failover and/or restore in the event of a disaster.

Recommendation 8:

The Office of Information Technology should fully document and communicate
the criteria used to determine the success or failure of an application during the
Disaster Recovery tests to ensure consistent reporting of results and alleviate
confusion.

Recommendation 9:

The Office of Information Technology should analyze the level of criticality of the
Commission data being              , and the needs and wants of its customers,
and establish an appropriate backup retention period based on the results of that
analysis and that meets the requirements of the Commission.

Recommendation 10:

The Office of Information Technology should ensure that                   from the
Commission’s                     are sent to an

Recommendation 11:

The Office of Administrative Services should work with the Office of Information
Technology to develop and implement a comprehensive Commission–wide
policy for the Entry and Exit of Contractors.




Assessment of SEC’s Continuous Monitoring Program                     August 11, 2011
Report No. 497
                                       Page 50
                            REDACTED PUBLIC VERSION
                                                                      Appendix VI


Recommendation 12:

After the Office of Administrative Services (OAS) contractor entry and exit policy,
Contractor Personnel Employment Entrance and Exit Procedures, has been
finalized and approved, OAS should provide training and communicate with
responsible parties, such as Contracting Officers, Contracting Officer’s Technical
Representatives, and Inspection and Acceptance Officials, regarding their roles
and responsibilities and proper procedures with respect to contractor entry into
and exit from the Commission.

Recommendation 13:

The Office of Human Resources, Office of Information Technology (OIT), Office
of Administrative Services, and the contracting office should perform, at a
minimum, a                  of separated/terminated employees and contractors
to ensure that OIT has received all account termination notices and has
deactivated the appropriate accounts in a timely manner.




Assessment of SEC’s Continuous Monitoring Program                    August 11, 2011
Report No. 497
                                       Page 51
                            REDACTED PUBLIC VERSION
                                                                                              Appendix VII


                                Management’s Comments




                                                 MEMORANDUM


                                                                                      July 26, 2011

TO:               H. David KOIZ, Inspecior General
                  Office of Inspector General (OIG)


                  Jacqueline \Vilson, Assistant Inspeelor General for Audit�
                  Office of Inspector General


FROM:             Thomas A. Bayer, Chief Information Offic         J ..11-
                                                                         ._.•

                  Office of Information Technology (OIT)          /\\)JvP .
SUBJECT:          OIT"s Response to II"" 010 Dntfl. Repurt Nu. 497, AS'ses's'menf L!f"SEC's
                  ContiflllouS Moniforing Program


This memorandum is in response to the Office of Inspector General Draft Report No. 497,
Assessment L!fSEC"s COn/inllous Moniloring Program. Thank you for the opportunity 10 review
and respond to this report.


RecO""lIelldalioll .I
The Office ofbiformalion Technology (OIT) shollid review {he SEC's !lIlicrosoi
                                                                             j Active DireclolY
sellings ond make Ihe necessalY changes 10 ensure thaI OIT password poli<.Y requiremenlS. as
documenled in Ihe implementing 111.\·/r/lcli011. are strictly el1!orcedfor both on-site and remole
users and Ihal Ihe documented password slructllre selforth in OIT policy is slriclly et!/in·ced..


orr concurs with this recc;l1lunendation and has taken steps to corTect the issues.



        ;",;";!,�!;J.';;:�"c"   ;o,, Technology help desk sholl!d begin lIsillg   0   random password
gC!l1erulor 10 creale lempormy passwords and require lIsers 10                                on Iheir_



OIT concurs with this recommendation; documentation and policy are rorthcoming to
completely correct the issue.



                                                (OIT) should implel1lenl 'rainin
                                                                               g for     �lIIlIIlIIlIIlII.
personnel 10 ensure               lechnicians consiSlenlly verifY IIser.� . inforll/alion in
accordaflce wilh OIT policy when (hey receive reqlles(.�· 10 change user accounts and passwords.


orr concurs with lhis recommendation; doculllcntation and policy are forthcoming to
completely correct the issue.


Reco,,,,,,e,,datiolt "




Assessment of SEC’s Continuous Monitoring Program                                             August 11, 2011
Report No. 497
                                                     Page 52
                                        REDACTED PUBLIC VERSION
                                                                                    Appendix VII




The Office of Iriformation Technology should ensure that security controls configurations that
are applied in the production environment are identical with those applied in the testing
environment.

OIT concurs with this recommendation.



Recommendation 5
The Office of Information Technology should develop and implement written procedures to
ensure configuration consistency in the Commission's production and testing environments.
These procedures should detail the software and hardware components in both environments
and specify the actions required to maintain consistent environments.

OIT concurs with this recommendation.


Recommendation 6
The Of
     f ice of Information Technology should complete and finalize written server and storage
log management policies and procedures thatfolly document roles and responsibilities for log
capture, management, retention and separation of duties.

OIT concurs with this recommendation.


Currently, all SEC systems send their system security logs to an independent OIT Security log
aggregation system. OIT Security staff and contractors have the ability to programmatically
review and alert on security events independent of the event source. The OIT Security event
aggregation system enforces the separation of incompatible duties. OIT agrees that
documentation needs to be updated to reflect our desired log management practices and
separation of duties within our Servers and Storage Branch.



     ffice o_rmation Technology should require that the �nd the
Recommendation 7
The O
                           have consistent, appropriately installed application and system
corifiguration files to ensure the ability to successfully failover and/or restore in the event of a
disaster.

OIT concurs with this recommendation and has taken steps to develop and implement procedures
that will routinely verify system fail over configuration

Recommendation 8
The Office of Information Technology should folly document and communicate the criteria used
to determine the success or failure of an application during the DR tests to ensure consistent
reporting of results and alleviate confosion.

OIT concurs with this recommendation and has taken the actions to comply with the
recommendation.

Recommendation 9




Assessment of SEC’s Continuous Monitoring Program                                   August 11, 2011
Report No. 497
                                             Page 53
                                REDACTED PUBLIC VERSION
                                                                                 Appendix VII




� of Information Technology should analyze the level of criticality of SEC data being
_ and the needs and wants of its customers, and establish an appropriate backup
retention period based on the results of that analysis and that meets the requirements of the
Commission.

OIT concurs with this recommendation and has developed investment plan to comply with this
recommendation,


Recommendation 10
I!:!!.2Jli ce oflnforma�d ensure that�om the SEC _
�re sent to an _
OIT concurs with this recommendation.


Recommendation 11
The Office of Administrative Services should work with the Office of Information Technology to
develop and implement a comprehensive Commission-wide policy for the Entry and Exit of
Contractors.

OIT concurs with this recommendation and will provide assistance to OAS to implement this
Commission-wide policy.


Recommendation 13
The Office of Human Resources, Office of Information Technology (OIT), Office of
Administrative Services, and the contracting office should perform, at a minimum, a  _
_    of separatedlterminated employees and contractors to ensure that OIT has received all
account termination notices and has deactivated the appropriate accounts in a timely manner.

OIT concurs with this recommendation.




 Assessment of SEC’s Continuous Monitoring Program                               August 11, 2011
 Report No. 497
                                            Page 54
                               REDACTED PUBLIC VERSION
                                                                                    Appendix VII




                                          MEMORANDUM




 To:      H. David Kotz
          Inspector General .
          Office of Inspector General


 From:    Jayne L. Seidman          �­
          Acting Associate Executiv .{bi;t:tor
          Office of Administrative Services


 Date:    August 8, 20II


 Subject: Response to Draft Report #497, "Assessment of SEC's Continuous Monitoring
          Program"



I appreciate the opportunity to review and provide formal comments on the OIG's draft report.


Recommendation 11: OAS should work with the OIT to develop and implement a comprehensive
Commission-wide policy for the Entry and Exit of Contractors.

OAS concurs. OAS will implement an agency-wide policy for entry and exit of contractors. The
policy will establish the roles and responsibilities of administrative officers, COTRs, and
contractor points of contact, and include references to other pertinent policies and procedures.

Recommendation 12: After the OAS contractor entry and exit policy, Contractor Personnel
Employment Entrance and Exit Procedures, has been finalized and approved, OAS should provide
training and communicate with responsible parties, such as Contracting Officers, Contracting
Officer's Technical Representatives, and Inspection and Acceptance Officials, regarding their roles
and responsibilities and proper procedures with respect to contractor entry into and exit from the
Commission.

OAS concurs. OAS will facilitate training on the agency-wide policy on entry and exit of
contractor employees, and communicate with responsible parties regarding their roles and
responsibilities and proper procedures.

Recommendation 13: OHR, OIT, OAS, and the contracting office should perform, at a minimum, a
••••••!I of separated/terminated employees        and contractors to ensure that OIT has received all
account termination notices and has deactivated the appropriate accounts in a timely manner.

OAS concurs with respect to contractor staff. OAS will support OIT's audit for the specific roles
identified and assigned to OAS in the policy.




 Assessment of SEC’s Continuous Monitoring Program                                  August 11, 2011
 Report No. 497
                                              Page 55
                                 REDACTED PUBLIC VERSION
                                                                                         Appendix VII




                                             MEMORANDUM

                                                August 5, 2011




TO:                H. David Kotz
                   Inspector General

FROM:             .&"c,<;stin C. Fair   :5..�:.�
                   Acting Associate Executive Director
                    Office of Hwnan Resources

SUBJECT:            OHR Management Response to Draft Report No. 497, Assessment ofSEC's Continuous
                   Monitoring Program



This memorandum is in response to the Office of Inspector General's Draft Report No. 497, Assessment of
SEC's Continuous Monitoring Program. Thank you for the. opportunity to review and respond to this
report. We concur with the reconunendation presented in the report for which OHR. has joint
responsibility.


Recommendation 13:

OHR. n request, OHR. will provide a report of separated/tenninated employees to aIT for
    �
tbis_




Assessment of SEC’s Continuous Monitoring Program                                        August 11, 2011
Report No. 497
                                                   Page 56
                                        REDACTED PUBLIC VERSION
                                                                      Appendix VIII


     OIG Response to Management’s Comments

We are pleased that OIT, OAS, OHR concurred with all 13 recommendations
addressed to their respective offices. We are also encouraged that OIT, OAS,
and OHR indicated they will work together to implement the recommendations
that were addressed jointly to their offices.

OIT indicated that it has already taken steps to implement several of the
recommendations. Further, OAS has indicated that it will implement an agency-
wide policy for entry and exit of contractors, facilitate training on the agency-wide
policy for entry and exit of contractors after the policy has been finalized and
approved, and will provide support to OIT for the                     of
separated/terminated employees and contractors. Additionally, OHR indicated it
will provide a report of separated/terminated employees to OIT for the
       as well. We believe OIT, OAS, and OHR’s proposed actions are responsive
to the report’s findings and recommendations.

We believe the swift implementation of all these important recommendations will
significantly improve the SEC’s continuous monitoring program, which is vital to
helping the SEC track the security state of its information systems in a highly
dynamic operating environment with changing threats, vulnerabilities,
technologies, and missions and business processes.




Assessment of SEC’s Continuous Monitoring Program                      August 11, 2011
Report No. 497
                                       Page 57
                            REDACTED PUBLIC VERSION
                     Audit Requests and Ideas
The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Telephone: 202-551-6061
Fax:       202-772-9265
E-mail:    oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at the SEC,
      contact the Office of Inspector General at

      Telephone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
